<html>
<title> - EXAMINING MISCONDUCT AND MISMANAGEMENT AT THE NATIONAL PARK SERVICE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]











  EXAMINING MISCONDUCT AND MISMANAGEMENT AT THE NATIONAL PARK SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2016

                               __________

                           Serial No. 114-164

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-123 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                             
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
         William McGrath, Interior Subcommittee Staff Director
              Melissa Beaumont, Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 22, 2016...............................     1

                               WITNESSES

Mr. Michael Reynolds, Deputy Director for Operations, National 
  Park Service, U.S. Department of the Interior
    Oral Statement...............................................     5
    Written Statement............................................     8
Mr. Kelly Martin, Chief of Fire and Aviation Management, Yosemite 
  National Park, National Park Service, U.S. Department of the 
  Interior
    Oral Statement...............................................    12
    Written Statement............................................    14
Mr. Brian Healy, Fisheries Program Manager, Grand Canyon National 
  Park, National Park Service, U.S. Department of the Interior
    Oral Statement...............................................    23
    Written Statement............................................    25

                                APPENDIX

Letter of June 16, 2016, Representative Hice to the President re 
  Director Jarvis's Resignation..................................    74
September 22, 2016 Ms. Kearney Congressional Statement submitted 
  by Mr. Palmer..................................................    76
Submitted by Ms. Lummis:
    September 21, 2016 Congressional Statement Grand Canyon......    86
    September 22, 2016 Congressional Statement Yosemite..........    88
    September 22, 2016 Hester Congressional Statement............    94
    September 22, 2016 Larkin Congressional Statement............    95
    September 20, 2016 Nebel Congressional Statement.............   103
    September 22, 2016 Williams Congressional Statement..........   105
    September 22, 2016 Brady Congressional Statement.............   113
Response from Mr. Reynolds, NPS, to Questions for the Record.....   116

 
  EXAMINING MISCONDUCT AND MISMANAGEMENT AT THE NATIONAL PARK SERVICE

                              ----------                              


                      Thursday, September 22, 2016

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 1:02 p.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Walberg, Amash, 
Gosar, Gowdy, Lummis, Meadows, DeSantis, Blum, Hice, Carter, 
Grothman, Palmer, Cummings, Norton, Connolly, Plaskett, Welch, 
and Lujan Grisham.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. And without objection, 
the chair is authorized to declare a recess at any time.
    We have an important hearing today. It is entitled 
``Examining Misconduct and Mismanagement at the National Park 
Service.''
    In June, National Park Service Director Jarvis testify 
before this committee about the problems and sexual harassment 
throughout the Park Service. He suggested that things could 
potentially get worse before they got better, and boy, was he 
right. Things have gotten a lot worse. We have certainly been 
able to illuminate and find more problems that unfortunately 
have been festering and been part of the system for far, far 
too long.
    Since Director Jarvis' testimony, numerous park employees 
from multiple parks have contacted the committee to describe 
patterns of misconduct at the Park Service, and today, we are 
here to determine what the Park Service is doing to stop the 
harassment and find out why it keeps happening. There seems to 
be some patterns here that are just not anything that we should 
come close to tolerating.
    These incidents are happening at our country's most beloved 
parks. From Yellowstone to Yosemite and the Grand Canyon, these 
are some of the most visited and famous parks literally in the 
world. Unfortunately, they also face serious management 
challenges and allegations of disturbing misbehavior.
    It is difficult often to have these discussions in an open 
setting, and I warn the parents of young people who may be 
watching this some of this is going to be probably a little 
touchy and a little inappropriate, but it is what we do in this 
committee. We illuminate things. We shine a light on them.
    We are different in the United States of America, as I have 
said time and time again, in that we are self-critical. And we 
better come to a reality grip of what is happening because far 
too often the people that are accused of this hideous behavior 
are simply promoted, maybe they get a bonus, and they just move 
on. There doesn't seem to be a consequence.
    In Yosemite at least 18 employees, 18, have come forward 
with allegations of harassment, bullying, and a hostile work 
environment. These employees lay the blame at the top on Dan 
Neubacher, the superintendent of Yosemite. The Park Service law 
enforcement official who investigated the allegation in 
Yosemite concluded this: ``The number of employees interviewed 
that describe horrific working conditions lead us to believe 
that the environment is indeed toxic, hostile, repressive, and 
harassing.'' I don't know that it could get any worse than 
that, but that is his conclusion. These are the words of the 
Park Service's own internal investigators, not the committee 
staff, not the Office of the Inspector General. Currently, 
Superintendent Neubacher is still running Yosemite. He is still 
there.
    If this was the only park suffering from these problems, it 
would be enough of a serious concern, yet recent allegations 
from America's first national park, Yellowstone, are truly 
beyond the pale. They include sexual exploitation, 
intimidation, retaliation, and sexual harassment so depraved 
that it is disturbing even to discuss. With accusations so 
alarming, you would expect the Washington office to step in 
immediately and ensure that employees in Yellowstone are safe.
    While I appreciate the decision to call on the inspector 
general for assistance, the Park Service must be more 
aggressive in protecting public service. We see this time and 
time again. It is not good enough to just say we are going to 
ask the inspector general to do it. The Park Service and the 
other agencies need to do their job and provide immediate 
relief, not punt it to somebody else to start doing it. And it 
is not good enough to just say we are going to do a survey. I 
am tired of hearing about surveys. There is a problem.
    In our June hearing we heard about the serious problems at 
Grand Canyon and Canaveral National Parks. Since then, it was 
reported that the supervisors who allowed misconduct to occur 
in these parks were not just left unpunished, some were even 
promoted. What in the world does it take to get fired from the 
Park Service? In most of these cases that I have seen it is not 
just one he said/she said. Here is a case that we are going to 
talk about today where we had 18 people, 18, who are talking 
about this.
    Leaders who fail in their obligations to protect the public 
or employees, they need to be fired. If they are not going to 
take action and they are not going to protect the employees of 
the United States of America, then they should leave.
    We had hoped our hearing with Director Jarvis would have 
prompted to change. Instead, it seems to have been treated 
merely as a speed bump. Based on what we have seen, the 
response to the crisis has been to require additional training 
for managers and to realign the EEO, the Equal Employment 
Opportunity office, so it reports to Director Jarvis.
    Here is the problem with Director Jarvis, though. Of course 
this is the same director who was removed from overseeing the 
Park Service's ethics program because his own integrity 
failures, including lying to the Secretary of Interior.
    I am glad to see that Director Jarvis has announced his 
retirement. I think that should have happened quite some time 
ago, but it is kind of stunning that the director of the Park 
Service is prohibited from administering an ethics program 
because of his own ethical problems. And then we wonder why we 
have a hard time implementing ethical reforms or just 
implementing things at the Park Service. How are employees 
supposed to trust the EEO process when the person in charge 
hasn't followed the rules themselves? Something needs to change 
and it needs to change fast.
    And I would like to acknowledge we are joined today by two 
Park Service employees testifying in a whistleblower capacity. 
These brave employees have come forward despite the fear of 
possible retaliation. Now, I have got to tell you, we will have 
nothing of that. Mr. Cummings and I, Democrats, Republicans, we 
are united in the idea that we will go to the ends of the earth 
to protect and support people who step up as whistleblowers.
    It takes a great deal of guts to come testify before this 
committee in a voluntary situation and explain what you have 
seen and heard firsthand. For that, we are exceptionally 
grateful. It is a difficult thing to do. I can't imagine you 
ever imagined in your life that you would be in this situation 
testifying before Congress, but as I said before, we take this 
responsibility very seriously. We can't fix it if we don't know 
precisely what it is. We have a pretty good indication of what 
it is, but to hear from the frontlines what is really happening 
is a pivotal concern to us.
    We want to thank you for your courage, your willingness to 
step forward, and we expect candid answers. And we will do all 
we can to protect you from any sort of reprisals.
    Chairman Chaffetz. So I would now like to recognize the 
ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I do 
indeed thank you for calling this hearing.
    No employee in Federal civil service should ever feel 
afraid to come to work. This is a simple statement, but it is 
very, very important. And no employee should ever feel 
retaliation if she steps forward or he steps forward to report 
misconduct that makes him or her feel afraid or uncomfortable.
    I thank Kelly Martin, the chief of fire and aviation 
management at Yosemite national Park; and Brian Healy, the 
fisheries program manager at the Grand Canyon, for being here 
today. I thank them for their courage and their willingness to 
come forward and share with this committee their experiences 
over decades of work for the Federal Government. I also thank 
you for your service. It should not have been necessary for 
them to be here today to testify.
    A task force convened some 16 years ago commissioned a 
study to examine women in law enforcement occupations in the 
Park Service. Here is what that study found: Some individuals 
in positions of authority appeared to condone either by their 
action or inaction sexual harassment and discrimination. The 
system used for handling complaints is not trusted by the 
employees, nor timely in its ability to bring resolution to 
complaints. That is a major, major problem.
    It went on to say that employees feel retaliation of 
complaints are voiced. That was 16 years ago. The task force 
concluded, ``It is critical for the National Park Service to 
show a sense of urgency in ensuring that all employees are 
working in an environment free from unlawful harassment.''
    The task force developed a five-year action plan with 
nearly 30 recommendations to correct deficiencies with handling 
complaints, recruitment, and retention efforts and sexual 
harassment prevention. However, the Park Service, by their own 
admission, few of these recommendations were ever implemented. 
Obviously, they did not consider it to be that important. They 
did not feel a sense of urgency. And so that task force report 
was filed away, put on a shelf, gathering dust, ignored.
    Sixteen years later, the inspector general has issued a 
report finding ``evidence of a long-term pattern of sexual 
harassment and hostile workforce environment in the Grand 
Canyon River District.'' Sixteen years later, the inspector 
general has issued a report finding ``a pattern of harassment 
involving a law enforcement supervisor at the Canaveral 
National Seashore.'' And 16 years later, members of the 
committee, allegations have been made at Yosemite and 
Yellowstone National Park's about possible harassment, hostile 
work environments, and even sexual exploitation.
    Today's hearing will enable us to hear from the Park 
Service with regard to specific measures it has implemented to 
ensure that all employees work in facilities where sexual 
harassment is not tolerated, and the agency's culture welcomes 
and supports a workforce that reflects the diversity of our 
nation.
    I want to hear about the specific reforms that the Park 
Service has implemented to ensure that all complaints are 
handled in a fair, timely, and thorough and consistent manner. 
I want to hear about the reforms that have been implemented to 
ensure that the disciplinary process yields consistent and fair 
discipline across all Park Service facilities and cannot be 
abused to retaliate against employees who file complaints.
    And I want to hear about the reforms that have been 
implemented to bring the Park Service's Equal Employment 
Opportunity program into compliance with the standards of a 
model program.
    In Ms. Martin's prepared testimony she wrote, ``With 
steadfast resolve to work together and confront the serious and 
subtle misconduct issues we currently face, we will set a north 
star for the culture change for the next generation of National 
Park Service employees.''
    With the commitment of employees like Ms. Martin and Mr. 
Healy, I am confident that we are on the right course to 
correct longstanding patterns of harassment and retaliation in 
the Park Service. And I thanked them before but I want to thank 
them again because they are not only here about themselves and 
things that they have seen, but they are trying to make sure 
that the Park Service is a place that is welcoming to 
generations yet unborn.
    However, to make the changes that clearly need to be made, 
we have to hold the Park Service's feet to the fire. Sixteen 
years ago, there were those who sat in the same chairs and 
tried to hold feet to the fire, but apparently, the fire was 
not hot enough. Well, we are going to have to do it again.
    It has been 99 days since our last hearing. Our committee 
should continue to hold hearings on the Park Service every 99 
days until all employees feel safe coming to work and reporting 
misconduct whenever and wherever it occurs. As I have often 
said from this committee during committee hearings, when I see 
things that are not right, I often say we are better than that, 
and we are better than that. And I want to thank our witnesses 
for coming forward to help us get to where we have to go.
    With that, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will hold the record open for five legislative days for 
members who would like to submit a written statement.
    I will now recognize our panel of witnesses. It starts with 
Mr. Michael Reynolds, deputy director for operations at the 
National Park Service of the United States Department of the 
Interior. Ms. Kelly Martin is the chief of fire and aviation 
management at Yosemite National Park of the National Park 
Service, the United States Department of Interior; and Mr. 
Brian Healy, fisheries program manager at the Grand Canyon 
National Park, the National Park Service, in the United States 
Department of the Interior.
    We thank you all for being here. Pursuant to committee 
rules, all witnesses are to be sworn before they testify, so if 
you will please rise and raise your right hand.
    [Witnesses sworn.]
    Chairman Chaffetz. Thank you. You may be seated. Let the 
record reflect that all witnesses answered in the affirmative.
    In order to allow time for discussion, we would appreciate 
your limiting your verbal comments to five minutes, but we are 
going to be pretty lenient on that. If you go over, you will be 
just fine. Your entire written record will be submitted as part 
of the record.
    Mr. Reynolds, you are now recognized. And you have got to 
make sure you turn it on but bring that microphone 
uncomfortably close to your mouth. There you go. Thank you.

                       WITNESS STATEMENTS

                 STATEMENT OF MICHAEL REYNOLDS

    Mr. Reynolds. Thank you. Chairman Chaffetz, Ranking Member 
Cummings, and committee members, thank you for the opportunity 
to update the committee on steps the National Park Service has 
taken to address sexual harassment cases at the Grand Canyon 
National Park and Canaveral National Seashore, as well as the 
broader issue of harassment in the workplace.
    The cases at the Grand Canyon and Canaveral were more than 
a wake-up call for the National Park Service. They presented us 
with clear and undeniable evidence that we, as we begin our 
second century of service, must extend the same commitment to 
the employees of the National Park Service as we make to the 
protection of our nation's most extraordinary places.
    On behalf of the senior leadership of the National Park 
Service and the majority of our 20,000 plus employees who are 
outstanding, honorable public servants, I share your disgust 
with the behavior that the inspector general outlined in these 
reports.
    In response to those situations, the leadership team at the 
National Park Service has committed to making substantial and 
long-term culture changes at the agency to prevent sexual 
harassment and to ensure that every employee has a safe and 
respectful work environment. This kind of change is neither 
easy nor fast. We will need to develop trust and support among 
our employees, visitors, and Congress to make the changes that 
are undeniably necessary. This hearing today is one step in 
that journey.
    Prior to becoming deputy director in August, I worked in 
many parks and regional offices throughout my 30 years with the 
National Park Service. As the regional director for the Midwest 
and more recently as the associate for Workforce and Inclusion, 
my focus has been accountability and performance management and 
change.
    As the new deputy director, I am personally committed to 
providing a culture of transparency, inclusion, respect, and 
accountability and making this a safe place for employees to 
work. We want to become a model agency. We will become a model 
agency.
    I will start by outlining the specific actions we have 
taken at the Grand Canyon and Canaveral since we last testified 
here in June. Since the June 14 hearing at the Grand Canyon, we 
have appointed a new superintendent, Christine Lehnertz, closed 
the River District within the canyon for now in terms of the 
rangers running the program, taken actions to hold employees 
accountable for misconduct, and acted on an 18--18 action-item 
recommendations in response to the OIG report.
    At Canaveral, we have removed the chief ranger accused of 
sexual harassment from his duties at the park, moved the 
superintendent into a detail assignment with the regional 
office, and initiated the process of moving forward with 
actions to hold employees accountable for misconduct. Employees 
and supervisors at both parks have received mandatory sexual 
harassment prevention reporting and response training sessions.
    Nationally, we are working with the Department of the 
Interior to take steps to eradicate sexual harassment and to 
change the NPS culture. Some of these include mandated online 
training for all managers and employees and distributing new 
NPS-specific guides service-wide; additional focused training 
for EEO, human resources, and employee relations staff to 
support the workforce, the professionals that would support the 
workforce; new reporting options including a hotline and an 
ombudsman office, which will be operational within weeks to 
serve as an independent and confidential resource for 
employees; a service-wide workforce harassment survey to be 
conducted later this year; an EEO office that now reports 
directly to the director and will receive additional support 
for their critical work; updated policies that provide guidance 
to employees on harassment, equal employment opportunities, 
discrimination, and diversity; and a mandatory 14-day deadline 
for completing anti-harassment inquiries.
    These efforts would be insufficient without a long-term 
plan to fundamentally change the culture of the National Park 
Service. Culture change begins with leadership commitment and 
accountability and is sustained through ongoing training, 
education, and employee engagement. In our centennial year, NPS 
leadership has refocused on what we want the service to look 
like in its second century and are committed to a transparent 
process focused on accountability to make the improvements that 
our employees want and deserve. This needs to be done very 
urgently.
    Thank you again for inviting me to testify before you 
today. I am happy to answer any questions that the committee 
may have.
    [Prepared statement of Mr. Reynolds follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
      
    Chairman Chaffetz. Thank you.
    Ms. Martin, you are now recognized.

                   STATEMENT OF KELLY MARTIN

    Ms. Martin. Chairman Chaffetz, Ranking Member Cummings, and 
members of the committee, I was requested before you today to 
discuss my personal experience with employee misconduct with 
the National Park Service.
    My name is Kelly Martin, and I am the chief of fire and 
aviation management at Yosemite National Park. I have been in 
my current position for over 10 years. Prior to Yosemite, I 
worked for the Forest Service for 16 years. Between the two 
agencies, I have 32 years of distinguished service to the 
American people. I am here before you today as a citizen and on 
behalf of many of our public land management women leaders. My 
testimony provided for this hearing focuses on management 
diligence to address misconduct over the course of my career.
    My motivation for this statement is for greatest focus and 
scrutiny on the culture created when leaders of our 
organization fail to take disciplinary action and to hold 
perpetrators accountable for their actions.
    It is not without note the vast majority of individuals who 
have devoted their life work on working for the National Park 
Service is an honorable and noble profession, myself included. 
I am here before you today to tell you my story but more 
importantly to provide testimony regarding the dark clouds of 
misconduct that remains elusive from public view.
    When I began working for the National Park Service as a 
college student in 1984, I was sure I found my dream job living 
and working in the outdoors with those who share the value of 
the importance of public lands in improving resources for the 
American public.
    Imagine for one minute being 20-something again. We have an 
idealistic view of the world that is equitable and just. My 
idealistic view was soon shattered when I became victim of 
sexual harassment not once but three times. One of my 
perpetrators was repeatedly caught engaging in voyeuristic 
behavior, all the while receiving promotions within the 
National Park Service until his recent retirement as deputy 
superintendent.
    This is very difficult to sit before you today. I am not 
boastful of the history of my sexual harassment experiences. As 
a matter of fact, this is the first time I have come out 
publicly to describe the painful scars of my past in a hopeful 
effort to eliminate these kinds of experiences from happening 
to young women entering our workforce today.
    I did find my own way to push past these experiences and 
decided to preserve my opportunity for career advancement. My 
experiences would go unreported until now. This is a highly 
personal decision a woman must make, and it is almost always an 
embarrassing, arduous situation to endure. What brings me to 
testify today is due to a hostile work environment situation in 
Yosemite National Park where dozens of individuals have come 
forward with personal statements of demoralizing behaviors to 
include acts of bullying, gender bias, and favoritism.
    While not rising to the notoriety of sexual harassment, 
equally damaging behavior patterns that create a hostile work 
environment are more pervasive than one might think and is 
unlikely confined to one park like Yosemite, as you will hear 
today.
    The time has come to recognize hostile work environments 
affect our employees on a day-to-day basis in our agency. All 
members of the team that allow a toxic work environment to 
persist are complicit in the negative effects that resulted in 
a decrease in employee morale and productivity. The subtle and 
overt nuances of a hostile work environment erodes human 
dignity and diminishes the full potential of our most valued 
resource, the people who care so deeply in the mission of the 
National Park Service and their desire to reach their personal 
and professional aspirations. We owe this to our future 
generation of women and men leaders who our agency desperately 
needs to guide us through our current human resource 
challenges.
    As I walked through my 33 years of service, I want to leave 
here today with a strong conviction of hope, hope for the 
future generation of the Park Service conservation leaders that 
will not know what it is like to experience sexual harassment, 
gender and racial discrimination, sexism, and hostile work 
environments; hope for national direction to encourage 
engagement of women and men at the smallest work unit to 
recognize and thwart negative behavior patterns at its insipid 
stage; hope we can identify misconduct and take swift and 
appropriate action against perpetrators.
    I also recognize our agency has many great men who will 
come forward to be courageous mentors and champions of women's 
contributions and encourage and support an equitable work 
environment.
    As a chief of fire and aviation at Yosemite, I aim to bring 
courage and inspiration to many women I am here representing 
today who are hopeful that my full written testimony would be 
the catalyst that is needed for change in our culture that is 
accepting of everyone.
    Thank you for the opportunity to share my experiences and 
concerns as the current situation in the National Park Service 
is dire and needs immediate attention to ensure future 
generations of employees have access to a workplace free from 
harassment and hostile work environments.
    I would be happy to answer any questions you have of me at 
this time.
    [Prepared statement of Ms. Martin follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    Mr. Healy, you are now recognized.

                    STATEMENT OF BRIAN HEALY

    Mr. Healy. Good afternoon, Chairman Chaffetz, Ranking 
Member Cummings, and members of the committee. Thank you for 
the opportunity to speak to you today. I hope the information 
that I share will provide additional insight into the full 
scale of the sexual harassment and hostile work environment 
issues that Grand Canyon and the efforts of the National Park 
Service to address misconduct at the park.
    The vast majority of Grand Canyon employees who believe in 
the NPS mission are hard-working, selfless, and willing to 
cooperate to meet management goals. Nevertheless, as this 
committee has seen in the Office of Inspector General's report 
on the previous--pervasive misconduct within the River 
District, there are exceptions.
    My testimony today may anger some of coworkers and 
managers. Based on my experiences, I feel as if my career, my 
safety, and the safety of other employees at the park maybe at 
some risk even though there are numerous legal protections in 
place for whistleblowers. Thus, I am using caution in how I 
characterize these experiences to protect the privacy of 
individual victims and witnesses.
    I know this committee is particularly interested in the NPS 
response to the findings of misconduct by the OIG. I can report 
on the progress of 12 of the action items proposed by the Park 
Service and how they've impacted operations and employees at 
the park.
    First, in August, a boat operator that was implicated in 
many of these sexual harassment incidents has been removed from 
his position. In addition, training sessions were held to 
address sexual harassment reporting and confidentiality. The 
training also provided recommendations on responding to 
reference checks on former River District employees, and the 
agency is making progress on the development of a hotline for 
reporting harassment.
    However, some actions did not have their desired impact. By 
shutting down Grand Canyon's River District and contracting 
river logistical support, we learned that we have very limited 
ability to prohibit problem boat operators from returning to 
work as contractors on NPS science trips. In addition, innocent 
employees that have worked at the River District may be 
negatively impacted by having their duties changed or, in the 
case of temporary employees, they lost work. We could have 
avoided this uncomfortable situation altogether if employees 
and supervisors were held accountable for their misconduct.
    Accountability is elusive for managers. The deputy 
superintendent remains in a position in my chain of command, 
and the River District supervisor was assigned to a temporary 
chief ranger position at another park. While only a temporary 
position, this appeared to be a promotion to Grand Canyon 
employees. The OIG found this individual and the deputy 
superintendent had distributed confidential information related 
to victims of sexual harassment to the perpetrators, which is a 
violation of regulations and potentially put the victims' 
safety at risk.
    In addition, despite reasonable and cost-effective 
alternatives, the deputy superintendent forced my worker to 
continue to work with the River District, which had become a 
hostile work environment in 2015.
    The culture of bullying and harassment is not limited to 
the River District, nor have all the issues been addressed. 
Beginning in 2013, I reported multiple instances of bullying 
and threatening behavior by members of Grand Canyon's trail 
crew and the program manager to the superintendent, deputy 
superintendent, and human resources staff. Examples included 
retaliation by some members of the trail crew directed toward 
an assault victim that had reported her assault to law 
enforcement. The assault victim's confidentiality was breached, 
and she was labeled with an expletive by members of the trail 
crew, the use of a misogynistic slur in reference to a female 
senior manager by the trail crew program manager, which was 
reported by a witness, and the witness was allegedly threatened 
with violence by the program manager on two occasions.
    According to those involved, it appeared that NPS managers 
did not follow through with appropriate investigations and in 
some cases made excuses for this behavior. An investigation 
into these incidents involving the trail crew, which occurred 
in 2013 and 2014, was finally initiated in April 2016 by the 
Intermountain Region, but the findings have yet to be reviewed 
five months later.
    Years of unchecked misconduct by the River District and 
some members of the trail crew and the termination of two 
employees that had reported sexual harassment have had a severe 
impact on employee morale, productivity, and perceived 
workplace safety. Witnesses and victims remain fearful. I have 
heard the term ``I was afraid to report harassment because I 
feared retaliation'' countless times in my seven years at Grand 
Canyon.
    Reporting is also discouraged. I was told that the deputy 
superintendent viewed me as a whiner, and my own supervisor was 
pressured to lower my performance rating due to ``Brian's 
problems with the River District and trail crew.''
    In closing, our new superintendent has pledged to improve 
the work environment for all employees. She indicated that we 
have much work to do. This summer, the regional office received 
almost 100 complaints or concerns related to workplace issues 
at Grand Canyon.
    Cultural change is difficult and will take time. The 
retention and promotion of managers that are perceived to be 
implicated in wrongdoing may continue, which will discourage 
future reporting of harassment and challenge employee morale 
and confidence in NPS leadership. I sincerely hope that this 
testimony will lead to continued positive change in the agency. 
Thank you.
    [Prepared statement of Mr. Healy follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Chaffetz. Thank you.
    I will now recognize the gentlewoman from Wyoming, one of 
the most beautiful States, perhaps second only to Utah, but one 
of the more beautiful ones and the home of one of our most 
treasured national parks. With that, I would like to recognize 
Mrs. Lummis for five minutes.
    Mrs. Lummis. Thank you, Mr. Chairman.
    We are primarily focused here on Grand Canyon and Yosemite 
National Parks, but it seems that more problems are cropping up 
in the system. Mr. Reynolds, are you aware of allegations by 
Bob Hester of misconduct among employees at Yellowstone 
National Park?
    Mr. Reynolds. Yes.
    Mrs. Lummis. Okay. Well, in an article published in the 
Montana Pioneer just before Labor Day weekend, Mr. Hester 
alleges that there was sexual harassment and exploitation as 
well as retaliation by supervisors at Yellowstone. The article 
mentions allegations also of financial misconduct. Now, who is 
currently investigating these allegations?
    Mr. Reynolds. The IG, inspector general.
    Mrs. Lummis. Have they begun interviewing witnesses?
    Mr. Reynolds. The last information, as I understand, is 
they have not, but they have an arrival date of September 27 in 
the park.
    Mrs. Lummis. When was the outside investigator scheduled to 
begin interviewing?
    Mr. Reynolds. I had a first phone call around September 3, 
and I believe the following week, the week of the 5th, 
Superintendent Dan Wenk began to put together the right 
mechanisms to bring in an independent investigation team.
    Mrs. Lummis. One of the things that concerns me, Mr. 
Chairman, about this is that in instances where the 
superintendent of a park is not implicated in the charges or 
the allegations of sexual misconduct and then attempts to 
investigate it or initiate an investigation quickly, that maybe 
the IG stops the investigation that is going on.
    I think this was the case in Yellowstone where 
Superintendent Wenk was beginning an investigation and bringing 
in outside investigators to do an independent inquiry and then 
was prevented from doing so because the IG was brought in, 
thereby delaying the opportunity to obtain statements while 
people's memories were fresh and potentially providing for the 
opportunity for certain of the alleged perpetrators to retire.
    So trying to balance how can we protect employees? How can 
we protect the people who, like Mr. Healy and Ms. Martin, who 
are bringing this information forward and at the same time type 
make sure that these investigations are conducted in a timely 
manner?
    Mr. Reynolds. I agree completely with your concerns. One of 
our new policy shifts that I alluded to in my testimony that 
we're doing with our EEO program is to establish these third-
party investigation units that would be able to swiftly go in. 
I'm going to recommend a 24- to 48-hour turnaround once we have 
a report. Superintendent Wenk had begun that process.
    I would like to have further conversations with the IG. I 
think they're doing absolutely their job to come in and do 
this. I'm not sure--they want to have a clean investigation, 
and so they did ask us to stand down a third-party 
investigator, but I know the superintendent has expressed his 
dismay to me about how he's worried about the time for that. So 
we agree.
    Mrs. Lummis. Okay. Well, in the case of Mr. Wenk, there 
were no allegations against him. There were no allegations to 
my knowledge that he knew and looked the other way. But what 
about the case where that is not true? What about the case 
where the superintendent of a national park is implicated? How 
do you deal with that situation?
    Mr. Reynolds. It's very important that we have somebody 
from the outside managing that process so that you don't have 
any problems if you will tainting an investigation, right? So 
our policy is to develop--in one example we have a different 
region, an EEO director from a different regional office of the 
other park to direct the investigation and to work with the 
regional office. In our chain we have seven regions that 
oversee these different parks. So to bring in some sort of 
third party that way is our current plan and our current 
policy.
    Mrs. Lummis. Well, and before my time is gone, I want you 
to know that we are going to be watching the National Park 
Service in the way that Ms. Martin is treated and Mr. Healy is 
treated and other whistleblowers are treated as a consequence 
of their bringing these allegations forward and that we are 
going to be watching the National Park Service because this 
should not be tolerated, it should not be unaddressed, and it 
has been inadequately addressed.
    And thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. I thank the gentlelady.
    I will now recognize the gentlewoman from the District of 
Columbia, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I appreciate this 
hearing.
    Mr. Reynolds, we are very grateful for how the National 
Park Service runs most of our neighborhood parks. It is not 
just the Mall but our neighborhood parks are owned by the 
National Park Service. We have a good relationship with the 
Park Service. I want to know if these two parks where these 
allegations, these issues have come from in the West, are they 
ours? Are people quartered together? Or are these nationwide 
problems?
    Mr. Reynolds. Congresswoman, if I can ask just to clarify. 
Do you mean, in other words, are these unique problems to these 
parks----
    Ms. Norton. To the Western part of the United States where 
these large parks where there are cabins. I don't understand 
whether or not the staff are quartered there instead of going 
home the way my own ----
    Mr. Reynolds. Understood.
    Ms. Norton.--Park Service rangers do.
    Mr. Reynolds. Right, we--so 413 units nationwide, very 
diverse system now. As you know ----
    Ms. Norton. I am talking about those Western units.
    Mr. Reynolds. In these two parks--and I would be happy to 
let Ms. Martin and Mr. Healy also comment--things can be 
exacerbated when you have communities much like a military base 
living and working together.
    Ms. Norton. Let me ask you both. Do you live in the park 
where you are located in cabins, men and women, or how do you 
operate since the only parks I know are the urban parks?
    Mr. Healy. At Grand Canyon there is--many employees are 
housed on the south rim, but then there is--there's times when 
they're working out of bunk houses in inner canyon in the 
backcountry. Myself, I work in Flagstaff, which is about an 
hour-and-a-half drive away. So it ----
    Ms. Norton. Ms. Martin?
    Ms. Martin. Thank you, Congresswoman. I do live in Yosemite 
Valley in a cabin, and a lot of our seasonal staff that's on 
our fire crew will be housed in, say, one house or one bunk 
quarters. There are certainly opportunities there that could 
potentially lead to a hostile type of environment, especially 
with our young folks. So we do have close quarters that men and 
women do live and work in on a regular basis.
    Ms. Norton. Which should caution the National Park Service 
to take such matters into account.
    Mr. Healy, I was reading your testimony. On page 8 you 
speak of a contractor. This doesn't go specifically to sexual 
harassment but it goes to issues like--you name alcohol abuse, 
drug use, so I am interested in how the policies relate to 
contractors. I was chair of the Employment Opportunity 
Commission. I wasn't aware that contractors were treated any 
differently, but I do note that you say in your testimony that 
you were informed that your concerns about the misconduct were 
not considered when the contract was awarded. I suppose I 
should ask Mr. Reynolds. Why are matters like drug abuse of a 
contractor, alcohol abuse, I take it maybe even sexual 
harassment are not taken into account when a contract is 
awarded?
    Mr. Reynolds. They should be for any on-duty thing, and 
I'll be happy to investigate what happened in this contracting 
process.
    Ms. Norton. I wish you would because it said--Mr. Healy 
said that he was specifically informed that his concerns were 
not considered, not even considered. That is what caught my eye 
when the contract was awarded.
    Mr. Reynolds. I would be very concerned about that if that 
is true, and I will be happy to get right back to you ----
    Ms. Norton. And we would like to know whether or not they 
are considered generally or whether that was an exception, and 
if you would let the chairman knows so that we can ----
    Mr. Reynolds. Yes, certainly, I can tell you ----
    Ms. Norton.--go back ----
    Mr. Reynolds.--and I think Mr. Healy will back me up. For 
any on-duty if you will period of contract, performance, that 
should be standard language in any contract how ----
    Ms. Norton. I would think so.
    Mr. Reynolds. To your point, when you're living and working 
24 hours a day if you will on the river, that may be where we 
have some issues.
    Ms. Norton. Yes, but Mr. Healy--there was a similar report 
16 years ago about this systemic harassment of women, and there 
were specific recommendations made. Are you aware of that 
report? I mean, we hear again 16 years later. Are you aware of 
that task force report about similar problems?
    Mr. Reynolds. The Women in Law Enforcement report?
    Ms. Norton. Yes.
    Mr. Reynolds. Yes, I am.
    Ms. Norton. When did you become first aware of that report?
    Mr. Reynolds. I ----
    Ms. Norton. And were any of its recommendations 
implemented?
    Mr. Reynolds. No, they were not as far as I can ever figure 
out. There were, as the chairman actually mentioned, 30 
different recommendations. I think things were worked on during 
that time frame. I wasn't involved at the time.
    Ms. Norton. Of course.
    Mr. Reynolds. But ----
    Ms. Norton. How can we be assured that any recommendations 
either from this committee or from similar task forces since--
worked on but full implementation apparently did not occur so 
we are back here again 16 years later?
    Mr. Reynolds. Yes, it's a very regrettable action that did 
not occur.
    Ms. Norton. Finally, Mr. Chairman, if I could ask, 
apparently in that report 16.3 percent of the Park Service 
women in law enforcement, park ranger and special agents were 
women. What is the percentage of women in those positions 
today?
    Mr. Reynolds. I believe we have about 247 women in law 
enforcement out of about a force of 1,664 so ----
    Ms. Norton. So do the math.
    Mr. Reynolds. I'm not the best in math but about 15 percent 
or so.
    Ms. Norton. You are going down, not up. One of the first 
things that agencies and private sector does when this problem 
occurs is to of course increase the number of women in law 
enforcement or in the applicable mission.
    Mr. Reynolds. Yes.
    Ms. Norton. Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentlelady.
    I will now recognize the chairman for Michigan, Mr. 
Walberg.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panel for being here and we hope this is very worthwhile for 
yourselves but also for the people you serve with.
    Having spent many weeks in national parks, North, South, 
East, and West, as a kid with my family camping, hiking, 
fishing, and then with my family doing the same thing even as I 
look forward to being out in Glacier National Park this next 
August, impressive territories we have, impressive treasures. 
And in every case, my experience, we have been treated with 
great respect and professionalism by the staff, so it is 
concerning to hear some of the behind-the-scenes and though we 
deal with humans and yet these type of things have to be 
addressed, so thank you for being here.
    Ms. Kelly, can you describe for this committee some of 
Superintendent Neubacher's behavior that you observed which 
prompted the investigation?
    Ms. Martin. Thank you, Congressman, for that question. 
Myself personally I have been the chief there at Yosemite for 
the last 10 years, and the marker point for me was when we had 
the rim fire of 2013 and I happened to be off unit on another 
fire and returning. My duties have been to act as the agency 
administrator representative for the superintendent when we 
have large incidents in the park. I returned. I told my 
supervisor I would be returning and I could assume those 
duties. And for whatever unknown reason, I was not allowed to 
perform those duties that is part of my official duties of my 
job within the park.
    It was for myself personally discrediting my 
professionalism, and it was humiliating for me to not be able 
to perform that job and that function in front of my peers, our 
interagency wildfire cooperators, and even the--our park 
internal staff that I was not able to provide that leadership.
    Mr. Walberg. Any rational reason given to you for that?
    Ms. Martin. No, sir.
    Mr. Walberg. Any reason at all?
    Ms. Martin. No, sir.
    Mr. Walberg. So it was just an arbitrary decision that was 
made by Superintendent Neubacher to not allow you to function 
----
    Ms. Martin. I requested to be able to split the duties 
between myself and I have a very competent deputy fire chief 
that took over two roles, both the agency administrator and he 
was also in the role of incident commander trainee. I'm 
confounded as to why I was not able to truly perform that--in 
that role.
    Mr. Walberg. In your testimony you mentioned the fear of 
retaliation for speaking out about what was happening at the 
park. Can you describe for us this concern and where it stems 
from? And are you aware of other employees that share the same 
concern?
    Ms. Martin. The fear of retaliation, the fear of coming 
forward is not necessarily in our culture to come forward and 
to describe hostile type of situations or a toxic type of 
environment. Ours is certainly dealing more with a hostile work 
environment. It's not dealing with sexual harassment, so that's 
not at issue right here.
    But people do not fear--or they do fear that they are not 
safe in bringing issues to management. And one of the concerns 
that I've heard is that within Yosemite National Park we have a 
superintendent, and our deputy superintendent position has been 
vacant for three years. So unfortunately, there's a 
concentration of decision-making within one person and is not 
necessarily shared within the deputy superintendent and the 
superintendent.
    Mr. Walberg. Has that been done for a purpose, keeping the 
vacancy there?
    Ms. Martin. I'm unaware of why that would remain vacant for 
the last three years.
    Mr. Walberg. Do you believe Superintendent Neubacher's 
actions to be an isolated incident or are they reflective of a 
larger cultural problem within the National Park Service?
    Ms. Martin. It's hard for me to address the larger 
cultural--I have reason to believe that it probably is a larger 
cultural type of issue. I do believe that it is important for 
the image to be in-house and for us to kind of take care of 
things in-house and not be able to share these types of issues 
publicly, but I think it's very, very important for the women 
that are--that have left, the women that are currently there at 
Yosemite to really understand and daylight what it is, what the 
behaviors that are exhibited that really truly cost people's 
integrity and a reduction in morale.
    Mr. Walberg. Well, thank you for your testimony, and I 
yield back.
    Chairman Chaffetz. The gentleman yields. I have just a 
follow-up to that.
    Mr. Reynolds, there are two things the committee would like 
to see. You have been unwilling so far to give us the expedited 
inquiry into the Yosemite situation. Is that something you will 
provide to the committee?
    Mr. Reynolds. Mr. Chairman, we did give your staff--I think 
they call it an on-camera--I'm not sure what that means but --
--
    Chairman Chaffetz. In camera, yes. Yes.
    Mr. Reynolds.--in camera, you know, visibile--and I know 
you're concerned about it. I know we've had some exchanging 
correspondence. I'll continue to work with our folks on it. It 
is an active investigation I guess is the short answer that I 
could give you. I am not unwilling to share with you data when 
I can. I just don't want to infringe on ----
    Chairman Chaffetz. It is something in your possession in 
Congress would like to see it, so can you name anything that we 
shouldn't able to see? Is there anything classified in there?
    Mr. Reynolds. No. And I don't disagree with your ability to 
get that. I'm just hampered a little bit ----
    Chairman Chaffetz. Wait, wait, wait ----
    Mr. Reynolds.--by the process ----
    Chairman Chaffetz.--don't disagree with my--you won't give 
it to us.
    Mr. Reynolds. At the moment we're having conversations 
about how to do that ----
    Chairman Chaffetz. What is the conversation? What is the 
hesitation?
    Mr. Reynolds. To keep--to be candid with you, sir, to keep 
the investigative process as clean as we can while we're 
getting into it.
    Chairman Chaffetz. So you don't trust Congress? Is that 
what you are saying? It would make it dirty?
    Mr. Reynolds. No, that's not what I mean.
    Chairman Chaffetz. Well, you said you are trying to keep it 
clean and you won't give it to Congress so ----
    Mr. Reynolds. It's just for public data purposes during an 
investigation, but I would--I will pledge to you to continue to 
work ----
    Chairman Chaffetz. No, I want you to pledge to give it to 
Congress.
    Mr. Reynolds. I understand that, sir.
    Chairman Chaffetz. Do you need a subpoena? What do you 
need? Who makes this decision?
    Mr. Reynolds. It will be a decision that I will talk over 
with our solicitors predominantly.
    Chairman Chaffetz. I would also like to see anybody who has 
been fired, dismissed, or retired from Yellowstone since 2013. 
Is that something you can give to us?
    Mr. Reynolds. Yes, I can.
    Chairman Chaffetz. When will you give that to us?
    Mr. Reynolds. I will give it to you within 48 hours.
    Chairman Chaffetz. Fair enough. Thank you.
    Chairman Chaffetz. I will now recognize the gentleman from 
Maryland, Mr. Cummings.
    Mr. Cummings. I want to pick up where the gentleman left 
off a few minutes ago, this whole thing of retaliation. And as 
I was listening to you, Ms. Martin, I cannot help but think 
about the question of how do you tackle a culture? It is not 
easy.
    In the Baltimore City Police Department I had asked for 
pattern-or-practice investigation. And the reason why I asked 
for it is because we had people in the department, good 
policeman, who knew that things were going bad and wrong but 
they do not feel comfortable talking about it because they were 
worried that they would be retaliated against. Their comrades 
would do some things that may be harmful to them. And when we 
got that pattern-or-practice report, it was 10 times worse, 10 
times, probably 20 than I ever imagined with regard to African-
American men and the way they were being treated by police.
    So, Mr. Healy, you said something that really kind of 
struck me. You said, ``I feel as if my career and possibly my 
safety and the safety of other Grand Canyon employees may be at 
some risk.'' That is a hell of a statement and it is one that I 
feel pain that you even have to even think it, let alone say 
it. And the mere fact that you have said it in a public forum 
puts you even, I would assume, in even more jeopardy. It is one 
thing to think it, it is another thing to say it, it is another 
thing to say it in a public forum.
    What can we do to help? Because, as I see it, the culture 
that I talked about before and I think that Ms. Martin is 
alluding to and probably you, too, is one that is--I mean, you 
almost have to dig deep and pry out probably a lot of folks and 
almost start over again. And so I am trying to figure out what 
is your hope? I mean, I am sure you have thought about this, 
said to yourself, you know, there has got to be a better way. I 
mean, how do you see that way?
    Because let me tell you something. The reason I am raising 
this is because, you know, in my opening I talked about 16 
years ago. Guess what? Most of these people weren't even--none 
of them, none of these people were here 16 years ago except me. 
They weren't even here. So another group of Congress people 
were addressing this supposedly, and yet it has not been 
corrected and the culture grows and metastasizes and gets 
worse.
    And you come here and I want you all to be effective and 
efficient. See, not only do I--I mean, I know that you have 
your concerns about retaliation, about your comrades being all 
upset, but it will be a damn shame if you came here, you gave 
your testimony--and this is my great fear--and it was not 
effective and efficient and what you drive it to do. But that 
is a lose-lose all the way around. You go back and they said 
why did you do that? And then it gets worse.
    And so help me in looking at what you have seen. I think 
Ms. Norton said one thing, Ms. Martin. She talked about having 
more women in key positions in law enforcement and supervisory 
positions. But what do you see? I mean, how would you like to 
see us try to break this culture? And do you have confidence--
you made some complementary statements, Mr. Healy, about some 
of the things you have seen being done but then you came right 
back and talked about the negative impact of some of the 
positive things that were supposedly happening. So help us. 
Help us help you.
    Mr. Healy. Thank you. I think what would help is that if we 
can ensure that these people that have come forward to me to 
ask for assistance in reporting things are protected to the 
same extent that I am. And I think, you know, in preparing for 
this testimony, I went back to some of these individuals that 
had bad experiences at the park and I asked them to help me 
deliver that message here. And I heard a lot of fear from those 
people, you know? And there's individuals at the park that 
have, you know, as I mentioned in my testimony, threatened 
people with violence and they're still there. And I think 
account--holding those people accountable is a really good 
step. And I'm not really sure how Congress can assist the Park 
Service in doing that, but that would be a good first step.
    And then the other thing you mentioned was you alluded to 
the--shutting down the River District and the river 
contracting. Those decisions were made--I'm not sure who made 
the decisions, but there was definitely no consultation with 
folks on the ground that are doing the work like myself or my 
coworkers that have experience and understand the risks and 
making some of those decisions. And I think if the Park Service 
leadership were to more effectively engage its employees in 
developing solutions for these problems, we would--it will go a 
long way.
    Mr. Cummings. What about you, Ms. Martin?
    Ms. Martin. Thank you, Mr. Cummings. I believe that we 
really have to start with the awareness of the culture that's 
been created over the years, and we have to--like you said, we 
have to root it out. We have to really understand what's at the 
root of this type of culture and this type of behavior that 
then supports sexual harassment and hostile work environments. 
I think that's truly our first step is awareness of the issues 
of how those behaviors actually ascend to these types of 
situations.
    Mr. Cummings. Now, Ms. Martin, I have been on the Naval 
Academy Board of Visitors for about 10 years now, and one of 
the things--we had a major sexual harassment problem, and what 
we found is that a lot of the midshipmen--I am going to 
something you just said to make sure I am clear. A lot of the 
midshipmen were doing things that were harassment and they 
claim--and some of them--I believe some of them--I am not sure 
about. So they didn't even know I was harassed. I mean, can you 
comment on that? You say you just talked about awareness. Go 
ahead.
    Ms. Martin. At some point we have to create an environment 
that's open and transparent with our leadership to really be 
able to talk about these hard issues. And until we get there, 
we're going to continue to have these misunderstandings between 
management and employees as to he said/she said. And until we 
get to that point that we can then provide this transparency 
and really expose it for what it is, we need to really talk 
about the behaviors and be able to communicate that.
    Right now, there's so much fear in being able to 
communicate what that is, and so I see that as, number one, the 
awareness and the culture that we've created and then being 
able to communicate what it is that creates these types of 
situations. Then ----
    Mr. Cummings. I am sorry. Please.
    Ms. Martin. And then at that point how do we then best 
educate our employees so that we don't have these kinds of--we 
don't have these kinds of hearings 16 years from now or five 
years from now. We just--we've got to think about things 
differently in terms of how we can be more communicative, you 
know, with our senior leaders. Right now, that's not happening.
    Mr. Cummings. And now that you have heard what they just 
said, Mr. Reynolds, can you tell us how, you know--you know, I 
get frustrated because, you know, I know we are going to hear--
you say a lot of nice things about what you are going to do 
and, you know, but convince us that you get it and that your 
folks get it because I am telling you, after these lights go 
out, they have got to go back. They have got to go back. I 
mean, how do you assure them and people coming into the service 
or want to come into the service or people that are there that 
they don't have to go through this crap? This is crazy.
    Mr. Reynolds. Yes.
    Mr. Cummings. And unacceptable.
    Mr. Reynolds. First off, I will join you in protecting my 
colleagues ----
    Mr. Cummings. Now, how are you going to do that?
    Mr. Reynolds. Well, the first thing I'll do is we really 
need to dive into the cultural issues, as well as, if you will, 
the fundamentals of ----
    Mr. Cummings. Well, what about the person who is watching 
us right now who is sitting there laughing and just--I mean, 
just like can't wait till they get back. I got something for 
them.
    Mr. Reynolds. Yes.
    Mr. Cummings. I am going to hurt them. I'm going to do 
something to them. How do you deal with that person, those 
people? Because apparently, there are quite a few.
    Mr. Reynolds. We can't let those lights go off. We have to 
not have any darkness, right? It has to be very transparent 
from here forward. There has to be an accountability that 
everybody can see and touch.
    They're also--with our culture we're trying to pull 
together some parts of our organization. So, for example, we've 
never really had affinity groups in the National Park Service, 
women's groups or other employee groups that might come 
together, and we're trying to attempt to do that in order for 
there to be a cohort that can be another protective kind of 
place that people--a safe place if you will to be--also for 
management then to be required to listen to those groups and to 
those employees about what the concerns might be.
    Mr. Cummings. All right. Thank you very much.
    Chairman Chaffetz. I now recognize the gentleman from 
Georgia, Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    You know, based on the actions of Director Jarvis, I think 
further oversight of the National Park Service is desperately 
needed.
    This is actually my third hearing on this matter. As a part 
of Oversight, we of course were here in June but also but also 
Natural Resources Subcommittee. We were with Director Jarvis in 
May.
    And I want to thank Ms. Martin, Mr. Healy for your 
testimony this afternoon and what you have endured.
    Director Reynolds, let me start with you. Based on your 
testimony, I know that you are aware of the sexual harassment 
cases specifically at Cape Canaveral, the operation there. Can 
you tell me just how many total complaints came from there 
even, you know, those that are ongoing or resolved cases?
    Mr. Reynolds. Yes, Congressman. I believe there's about 
three complaints, but I believe there might be a few more IG 
reports that I'll follow-up in a confirmation with you on that.
    Mr. Hice. Okay. There has actually been four. And in fact, 
the Washington Post reported in early July that four 
investigations there since 2012 is an unusually high number, 
they said, for such a small operation of the National Park 
Service. And, as you just mentioned, these are just the ones 
that we know about. As has been testified to today, people are 
scared. Who knows how many other cases have been swept under 
the rug because of the culture of fear.
    During the time of these investigations since 2012, who was 
the superintendent in charge?
    Mr. Reynolds. In 2012 I believe it was Superintendent 
Palfrey.
    Mr. Hice. That is correct. And I don't represent the good 
people of Florida, but just yesterday came across an article in 
the Florida Today, and they reported, like I said, just 
yesterday that Superintendent Palfrey was promoted to the 
position of special assistant to the Southeast regional 
director. Are you aware of that?
    Mr. Reynolds. Yes, sir.
    Mr. Hice. Okay. And as she has been promoted, she gets to 
work at home, she gets a comfortable $116,000 salary. And you 
mentioned in your testimony a few moments ago that the chief 
ranger at Cape Canaveral was no longer at the location there, 
but you failed to mention that the superintendent has received 
a promotion to the Southeast regional director. Do you know 
where the Southeast regional director office is located?
    Mr. Reynolds. It's in Atlanta. And if I could offer, sir, 
that ----
    Mr. Hice. No, let me go on.
    Mr. Reynolds. Okay.
    Mr. Hice. It is in Atlanta, and that is in my backyard. And 
that raises a great deal of concern for me personally. You are 
also aware that Director Jarvis testified here in Congress over 
a book deal where he failed to secure proper permission for 
that book. You are aware of that?
    Mr. Reynolds. Yes.
    Mr. Hice. And, Mr. Chairman, you know, my point in all of 
this is the pattern that is clearly unfolding before us. 
Obviously, under the direction of Director Jarvis there is 
unaccountability, there is poor management, unsafe work 
environment, and that has permeated throughout the National 
Park Service. And what is the consequence for Director Jarvis? 
Again, he gets a mere slap on the wrist. He has to go through 
some silly monthly ethics training once a month, watch a video 
or something for the duration of his time.
    And so here is what people are getting at the Park Service: 
these type of slaps on the wrist and/or promotions. You know, 
this is just insane. This is absolute insanity.
    And, Mr. Chairman, on June 16 I wrote a letter to the 
President, President Obama, asking for the resignation of 
Director Jarvis. And I actually have a copy of that letter here 
that I would like to go in the record.
    Chairman Chaffetz. He is asking unanimous consent. Without 
objection, so ordered.
    Mr. Hice. And while I understand Director Jarvis is going 
to retire in January, what we have heard yet again here today 
and what continues to be prevalent in National Park Service I 
just want it on record that I stand by my position in 
requesting the immediate resignation of Director Jarvis.
    And with that, sir, I yield back.
    Chairman Chaffetz. The gentleman yields back.
    I now recognize the gentleman from Vermont, Mr. Welch, for 
five minutes.
    Mr. Welch. Thank you very much.
    You know, the National Park Service is a great treasure. It 
is unbelievable. We have all been to the national parks and I 
go to one every year, so it is pretty sad to hear about this. 
And my experience as a visitor, as a hiker is one of just 
enormous appreciation for the staff that I meet from the bottom 
on up. It is really quite wonderful. And my sense is that in 
general there is just an enormous appreciation for the work 
that people do.
    My sense, too, is that the people who work there, it is a 
way of life for them. They love the outdoors, they love nature, 
they love the history and tradition. So it is very sad that 
also part of it is a situation that you all have been 
describing, but I want to take all three of you actually for 
the work you have done and for coming forward.
    I will start with you, Mr. Reynolds. You know, the culture 
on this has got to be in a way zero tolerance, and the culture 
and how employees are expected to work does come from the top, 
and that has to imbued from the top down and then reinforced in 
every way. So what concrete steps can you take to do that? If 
the leadership doesn't take this deadly seriously, then no one 
else will.
    Mr. Reynolds. We have to get this right. This has to be our 
top priority. One of the first things that I would like to do--
I'm in day 52 here in this new job, so I'm just--I found the 
bathroom, so now we need to get going on some very big focus 
through the chains of command. We'll be meeting next week with 
some of the field leadership, and I would like to be able to 
tell them at that point what we plan to do with a diversity and 
inclusion outfit that would be tied to my office ----
    Mr. Welch. You know ----
    Mr. Reynolds.--and that can start working on the cultural 
issues because you're right, it is ----
    Mr. Welch. Well ----
    Mr. Reynolds. We have some of the most outstanding public 
employees, as these two represent ----
    Mr. Welch. You do, but you know what ----
    Mr. Reynolds.--and we have to give them that kind of 
management.
    Mr. Welch. Yes, but I don't quite know what that means, 
what you just said. I don't think it takes a big meeting. It is 
like, look, folks, any unwanted advances just aren't allowed. I 
mean, how complicated is that?
    Mr. Reynolds. We have put out quite a bit of extensive 
refresher if you will and reminder and zero tolerance policy. 
But I agree with you and I think it needs to be a step further, 
which is actions. Actions will be louder than words in this in 
terms of the accountability.
    Mr. Welch. The action is I think--all the people in 
management have to meet with their staff and they have to have 
a discussion and basically say it. It is not complicated. They 
have to say it and mean it.
    And then on the other hand and we also want to get more 
women into leadership positions as well.
    Mr. Reynolds. Right.
    Mr. Welch. All right.
    Chairman Chaffetz. Will the gentleman yield?
    Mr. Welch. I will. Yes, go ahead.
    Chairman Chaffetz. Mr. Reynolds, what was your job before 
this job? What were you doing at the Park Service?
    Mr. Reynolds. I was the associate director for workforce --
--
    Chairman Chaffetz. Yes, so you are in charge of H.R. Don't 
lead Mr. Welch to believe that you are in day 54 and, hey, I am 
the new kid on the block. You have been running the H.R. 
department at the Park Service since 2014, so your words are 
little bit hollow in here, hey, well, you know, we have got to 
do some refresher. And can you give me a single instance where 
you have--you said you have a zero tolerance policy. Are you 
kidding me? Show me an example of zero tolerance.
    Mr. Reynolds. Well, you know, first off, I understand your 
perception, and I've been dealing with revamping the whole 
systems and process of workforce, haven't gotten there yet. We 
have the zero tolerance policy, and I guess my point is ----
    Chairman Chaffetz. Wait a second.
    Mr. Reynolds.--putting it into action.
    Chairman Chaffetz. It is Mr. Welch's time, but you haven't 
gotten there yet. You had the job--when did you first take on 
that job in human resources?
    Mr. Reynolds. Two years ago.
    Chairman Chaffetz. I know, but give me a month in 2014.
    Mr. Reynolds. April of '14.
    Chairman Chaffetz. Okay. Sorry. It is your time but ----
    Mr. Welch. No, I appreciate your questions.
    You know, here is my view on this. We can have personnel 
policies and we can write down the this's and the that's and it 
can be 10 pages or 500 pages. None of it means anything other 
than what is the culture that people in that environment are 
expected to live by? And people respond much more to a 
reinforced culture because it is the way it is, and that comes 
with a pride. It comes with a mutual respect.
    So, you know, give me all the policies in the world, but 
employees are not going to be thinking at the time they may 
want to do something that they shouldn't be doing whether this 
is a violation of subsection 4 of article 5 in chapter 2. It is 
just going to be--we don't do that around here. And that I 
really do think is a top-down responsibility. It is just every 
single day in every way.
    And the reason I got a little nervous about your answer is 
that it suggested to me or this is the implication I have which 
may not be true, but that if we write the right policy, that 
will take care of it. And, you know what, we don't have to 
write anything and we can take care of it by having management 
make it clear that any unwanted advance is totally out of line.
    Mr. Cummings. Will the gentleman yield?
    Mr. Reynolds. I'm sorry if I misled--misunderstood ----
    Mr. Welch. You didn't mislead ----
    Mr. Reynolds.--Congressman, but I agree with you.
    Mr. Cummings. If the gentleman would yield just for one 
second, I know you don't have much time.
    I just had one question. When you were running H.R., what 
does zero tolerance--what did that mean? Because I hope it is 
not about writing a memo to do a refresher course because let 
me tell you something. The people watching this at the Park 
Service, when they hear you say that, they say, oh, boy, we are 
in great shape.
    Mr. Reynolds. Yes.
    Mr. Cummings. Nothing is going to happen, and we will keep 
doing what we have been doing. I am just telling you.
    Mr. Reynolds. Right.
    Mr. Cummings. So tell us, define for all of us so that 
other people when they ask their questions will know what you 
meant when you were zero-tolerancing.
    Mr. Reynolds. Well, we need to have a much better 
fundamental set of professionals ----
    Mr. Cummings. But what did it mean when you were doing the 
job?
    Mr. Reynolds. It should mean that we have ----
    Mr. Cummings. No, no, no, no, no, no. I am asking you, you 
were head of H.R., am I right? Come on now.
    Mr. Reynolds. The Workforce Directorate, yes.
    Mr. Cummings. All right. All I am asking you--the chairman 
talked about zero tolerance. That was your thing. All I am 
asking you is what did that mean? The reason why I am asking 
you this is because I am trying to predict your future. I am 
trying to figure out how you are going to act in this position 
because they have got to go back.
    Mr. Reynolds. Yes.
    Mr. Cummings. And it seems listening to you say I am going 
to write a little memo, I am going to send them a refresher 
course, those guys are laughing at you like you are a big joke.
    Mr. Reynolds. Right.
    Mr. Cummings. And you know what happens? They get screwed.
    Mr. Reynolds. What it means to me is to make ----
    Mr. Cummings. What it meant to you. What did it mean? And 
then tell me what it means now.
    Mr. Reynolds. It meant to me to make the safest place we 
can for our employees. It meant that they would have the 
ability to report, that they would be protected.
    Mr. Cummings. Well, you failed.
    Mr. Reynolds. Yes, we have, so far.
    Mr. Cummings. Sitting here ----
    Mr. Reynolds. We have.
    Mr. Cummings.--failed.
    Mr. Reynolds. We have.
    Chairman Chaffetz. I now recognize the gentleman from South 
Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Reynolds, I want to you tell you. You have managed to 
do something that I have not seen done in the five years I have 
been here. Peter Welch is one of the more level-headed, 
reasonable-minded, one of the more decent human beings that you 
will meet in public service. You have managed to even get him 
upset. Getting Mr. Cummings and I upset is not as much of a 
challenge. Getting Peter Welch upset is.
    And I think what upsets him is when you have a fact pattern 
of someone spying on another person while they are taking a 
shower, you don't need a policy change and you don't need a new 
memo. You need handcuffs and a trip to the sex offender 
registry. That is what you need.
    So, Ms. Martin, you said a couple of things in your 
statement that resonated with me. You said, ``It is a deep, 
conflicted, and risky decision for me to come forward and speak 
up today.'' And you said, many women ``feel shame and fear of 
coming forward to report misconduct'' and cannot bring 
themselves ``to be the ones who have the difficult and painful 
task of speaking up.'' Here is what I want you to help me do. I 
want the fear and the difficulty and the pain to belong to the 
perpetrator, not the victim. So I want you to tell us as much 
about your fact pattern, your story, and I want you to stop and 
cite all those instances where something more could have been 
and should have been done, and do it on behalf of the women who 
maybe don't have the ability to speak up like you do.
    Ms. Martin. Thank you, Congressman, for this opportunity. 
It is a very painful and conflicted position that I'm in right 
now. This happened. I was a victim of a peeping tom at Grand 
Canyon in 1987. It was a very difficult and painful experience 
for me. I reported it to two supervisors immediately that first 
day that I was able to positively identify a park ranger in 
uniform that was peering through my bathroom window. I reported 
it to two supervisors. Visibly shaken, it was very, very 
difficult for me to do. It was very embarrassing. I didn't 
think anybody would actually even believe me that something 
like this had happened to me.
    I was given options. I could say nothing and move on. I 
could file an EEO complaint or a criminal complaint. I had to 
think about that for a couple of days as to how I wanted to 
proceed. I was just starting my career in the Federal service 
in my early 20s, and I just did not want to make this an issue. 
I just did not want to come forward in admitting a complaint 
like this this early in my career and be labeled as a 
troublemaker.
    In the end, what I agreed to was a conference or a sit-down 
with the two supervisors that I reported this to, along with 
the perpetrator. He apologized to me. He assured me that this 
had never happened before and that it'll never happen again.
    And so for me this has been with me my entire career, and 
so when I think of zero tolerance, I think this is where this 
was the hardest part for me is to--it just did not feel like 
zero tolerance for me. I've had to live with this a long time. 
This particular individual continued to be moved through the 
Park Service and just recently retired.
    So for me I believe that this was the tipping point for me 
to come forward and tell my story that this is why I could no 
longer remain silent. There's a lot of other women out there 
that I represent that these very same things have happened or 
very similar things, and they just fear that management will 
not take action and then we become victims again for coming 
forward.
    Mr. Gowdy. So the perpetrator went on and finished his 
career with the Park Service and is now enjoying the perks of 
his retirement?
    Ms. Martin. That's my understanding.
    Mr. Gowdy. Well, I will just say this. You should never 
have to choose between your career and justice ever. You should 
be able to pursue both of them with all the vigor in the world, 
so I am sorry it happened to you and I appreciate the courage 
it takes to come and share your story.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize Ms. Plaskett.
    Ms. Plaskett. Thank you, Mr. Chairman. And thank you for 
being here this afternoon and sharing this somewhat 
uncomfortable discussion with us here.
    We all know that there is an urgent need to stem sexual 
harassment, discrimination by increasing female representation 
in the workforce and particularly at senior leadership 
positions and individuals having a say in how these policies 
are done.
    Ms. Martin, you wrote in your prepared statements--I am 
going to quote--``The jewels of the Park Service heavily favor 
men in the most powerful positions of superintendents, deputy 
superintendents, fire, and law enforcement.'' Mr. Reynolds, how 
many national parks are there, and how many park 
superintendents are women?
    Mr. Reynolds. We have 413 parks, and as you know, 
Congresswoman, there is not a superintendent necessarily in 
every park. And I believe--I'm going to find the actual number 
for you, but I think it's around 258 superintendents ----
    Ms. Plaskett. Okay.
    Mr. Reynolds.--and I believe about 127 are women. If you 
just give me a minute ----
    Ms. Plaskett. Okay.
    Mr. Reynolds.--I'll find the right number.
    Ms. Plaskett. That would be good.
    Mr. Reynolds. It's about a 60/40--slightly under 40 
percent.
    Ms. Plaskett. So 60 percent are?
    Mr. Reynolds. Men.
    Ms. Plaskett. Men. And then those positions below that at 
the deputy superintendent level?
    Mr. Reynolds. Deputy superintendents, I have 58 percent 
men, 42 percent female ----
    Ms. Plaskett. And ----
    Mr. Reynolds.--and I will clarify for you, 62 percent men, 
38 female on superintendents.
    Ms. Plaskett. Okay. And the parks that the women are 
superintendents over, are they the same size and scope in terms 
of geographic size, as well as personnel, as the men that are 
superintendents ----
    Mr. Reynolds. You know, I'd have to ----
    Ms. Plaskett.--because there are different kinds of 
superintendents.
    Mr. Reynolds. Correct. I think it's pretty evenly 
distributed. We could look at that more carefully, but I have 
not heard a concern on that level other than our demographic 
numbers.
    Ms. Plaskett. Okay. I know that there are two initiatives 
to expand the presence of women in the Park Service. So you 
said that it seems to be evenly distributed. I mean, it is not 
exactly what the demographics of our country are but it seems 
evenly distributed as much as wouldn't seem askew. What are the 
initiatives that you are doing to increase the number of women 
in that workforce? So we have the same number level at 
leadership, so you have a 60/40 split. Do you have a 60/40 in 
terms of at middle management and then in terms of the workers 
that are in the park?
    Mr. Reynolds. I'd have to pull out exact numbers, but I 
think it tracks fairly close to that. We do have women now 
scattered through in our senior leadership as well, in our 
regional director ranks, for example, and in our associate 
director ranks.
    We have some initiatives in general to diversify the Park 
Service. We also have strong majority numbers of our employees, 
and so we're working across the board. We've set up a new 
recruitment office to begin to focus the H.R. community on that 
very topic.
    Ms. Plaskett. Okay. I know that you have the Women's 
Employee Resource Group, the Fire Management Leadership Board. 
How are they bringing benefit to the Park Service?
    Mr. Reynolds. Well, I think they're a start. I don't think 
they're fully achieving their goals, but they bring us some 
tools and some awareness and some requirement on our leadership 
to be considering these things in the recruitment process ----
    Ms. Plaskett. What are the goals of those initiatives?
    Mr. Reynolds. Well, the Employee Resource Group, there's a 
number of them that we're trying to form to give people, again, 
a safe place to have a cohort to bring forward, for example, if 
it's the women's--we call them ERGs, Employee Resource Group. 
Then they can bring forward issues important to women in the 
service. They can represent a voice. They can be a defense 
place if they need it, that kind of thing.
    Ms. Plaskett. And I would be remiss without asking--I know 
we were talking about sexual harassment against women, but how 
many people of color do you have as superintendent of the 
parks?
    Mr. Reynolds. I don't know the answer to that. I can 
quickly get it to you, though. But I will tell you that our 
workforce is generally 80 percent white across the board.
    Ms. Plaskett. Across the board?
    Mr. Reynolds. Yes.
    Ms. Plaskett. Okay. But I would like to know how many men, 
women of color are superintendents and deputy superintendents 
----
    Mr. Reynolds. I would be happy to get that to you.
    Ms. Plaskett.--of the parks. Thank you. I yield back.
    Chairman Chaffetz. I thank the gentlewoman.
    I will now recognize the gentleman from Alabama, Mr. 
Palmer, for five minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Reynolds, what steps has the National Park Service 
taken in response to the findings of the Grand Canyon's OIG 
report?
    Mr. Reynolds. Yes, thank you, Congressman. We have about 18 
steps that the OIG asked us to endeavor on, and this included 
everything from some of the training and awareness kinds of 
programs that we talked about to disciplinary action.
    Mr. Palmer. One of the action items outlined by the Park 
Service in response to the OIG report is that managers who 
failed to properly report all allegations of sexual harassment 
would be held responsible and that appropriate disciplinary 
action would be taken by May of 2016. To date, what if any 
disciplinary action has the Park Service taken against these 
managers?
    Mr. Reynolds. I believe everybody in the canyon--and Mr. 
Healy can back me up on this--have been removed from the job 
that they had. The boatman has been removed from the park and 
is undergoing a disciplinary process as we speak.
    Mr. Palmer. Well, as I was listening to testimony earlier, 
it seemed to me that Mr. Healy felt like some of the action was 
taken was more in the context of a promotion than disciplinary 
action. Did I misunderstand that or did I hear that correctly?
    Mr. Reynolds. I'm not aware of any ----
    Mr. Palmer. Mr. Healy?
    Mr. Reynolds. I'm sorry.
    Mr. Healy. Thank you. Yes, the supervisor of the River--
former River District was given a temporary promotion to 
another park.
    Mr. Palmer. Do you think that was appropriate?
    Mr. Healy. I don't, and a lot of employees at the park feel 
the same way.
    Mr. Palmer. Let me read something to you that I find 
particularly troubling. It is a quote from the National Park 
Service expedited investigation, and it is from two trained 
investigators who interviewed some of the victims. And it says, 
``It is difficult to articulate in words the emotions that 
exuded from those interviewed.'' It says that ``It is apparent 
that these employees have suffered in their positions and are 
traumatized by the harassment they are subjected to. During the 
interviews, the emotions ranged from inconsolable tears, anger, 
frustration, helplessness, and regret.'' In that regard, Mr. 
Reynolds, do you think appropriate actions have been taken?
    Mr. Reynolds. I believe ----
    Mr. Palmer. Your microphone, please.
    Mr. Reynolds. Sorry. I believe what you are reading from, 
sir, is the Yosemite expedited inquiry or is ----
    Mr. Palmer. Well, I mean, it seems that there is a pattern 
across here that women were intimidated, other people were 
intimidated, they were traumatized ----
    Mr. Reynolds. Yes.
    Mr. Palmer.--and you gave one guy a temporary promotion. 
Has anyone been fired? Has that question been asked, Mr. 
Chairman? Has anyone been fired? Has anyone terminated?
    Mr. Reynolds. No one has been fired yet, no.
    Mr. Palmer. That seems to be a pattern ----
    Mr. Reynolds. A disciplinary action is--are underway. And 
the one thing that I ----
    Mr. Palmer. Let me go on and ask you a couple of other 
questions. In November 2015 the OIG found that the deputy 
superintendent and other managers of Grand Canyon improperly 
shared personal information of the women who wrote to Secretary 
Jewell reporting the egregious sexual harassment in the Grand 
Canyon River District.
    One former Grand Canyon employee who submitted a statement 
for the record stated that, ``Given the culture of retaliation 
and hostility towards the victims within the Grand Canyon River 
District, I, along with the other victims of Diane Chalfant's 
negligence, am rightly terrified that the alleged perpetrators 
will contact us directly to retaliate against us.'' I would 
like to enter that statement in the record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Palmer. What actions has the Park Service taken in 
response to the disclosure of this personal information?
    Mr. Reynolds. The actions that we've taken to date is to 
recognize that there was inappropriate actions for the EEO 
process ----
    Mr. Palmer. Well, that is great that you recognize it, but 
I want to know, has anyone been fired? Has anyone been demoted? 
I mean ----
    Mr. Reynolds. No, what I can do under the interest of the 
Privacy Act for these kinds of things is to personally debrief 
with you on what we're doing with disciplinary actions. I can 
assure you that they're underway.
    Mr. Palmer. All right. And I just wonder, given all of 
this, how any Park Service employees can trust that managers 
will keep their information confidential, that any Park Service 
employees can be confident that if they are harassed in any way 
that they will be listened to and that action will be taken to 
protect them?
    Mr. Reynolds. The--this has ----
    Mr. Palmer. It is disconcerting to me, Mr. Chairman, that 
we have had hearings with other agencies and it just seems that 
this goes on and on and on and no real punitive action is 
taken. And as long as we have that stance, as long as no real 
punitive action is taken, these types of things are going to 
continue to happen.
    My time is expired. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize myself here.
    Let me go back to the expedited investigation at Yosemite. 
It is our understanding of the 21 people the investigators 
interviewed, every single one of them with one exception 
described Yosemite as a hostile work environment as a result of 
the behavior and conduct of the park's superintendent. Why 
isn't there immediate relief?
    Mr. Reynolds. We--I'm sorry, Mr. Chairman, that was to me?
    Chairman Chaffetz. Yes.
    Mr. Reynolds. We are actively engaged. The regional 
director, who's in San Francisco ----
    Chairman Chaffetz. Wait, wait. Let's explore the 
relationship between Yosemite and the region. Is there a 
problem with that chain of command there?
    Mr. Reynolds. The regional office that oversees Yosemite is 
in San Francisco. We have a regional director. We had the ----
    Chairman Chaffetz. What about the deputy? Who is that 
person?
    Mr. Reynolds. We have three deputy regional directors.
    Chairman Chaffetz. Yes.
    Mr. Reynolds. And one is in Seattle and two are in San 
Francisco, along with the regional director.
    Chairman Chaffetz. Come on. You know what I am getting at. 
What is the ----
    Mr. Reynolds. One of the deputies is the wife of the 
superintendent at Yosemite ----
    Chairman Chaffetz. So ----
    Mr. Reynolds.--and we have--and if I may, Mr. Chairman, we 
have consciously stovepiped that by having a third party in the 
Midwest region, our EEO manager, help run the investigative 
process.
    Chairman Chaffetz. Okay. But here is the problem. These 
things didn't just spring up overnight, right? This has been a 
longstanding pattern. You have somebody who is essentially 
protected and empowered by his wife. I mean, people are afraid 
of actually coming forward and filing a complaint. I mean, one 
of the complaints is that the complaints get back to the 
superintendent. And so when your chain of command and your 
ability to tell supervisors is impeded by the fact that they 
are husband and wife, how do you let that happen?
    Mr. Reynolds. It's even more important why this 
investigation is important to me to understand if the 
allegations are true ----
    Chairman Chaffetz. How long has it been going on?
    Mr. Reynolds. I am not sure, Mr. Chairman.
    Chairman Chaffetz. What you mean you are not sure? You are 
the head of the workforce and then you got a promotion so ----
    Mr. Reynolds. Yes, I don't know in terms of what the 
timescale has been, but that is what I am asking the 
investigative teams to look into.
    Chairman Chaffetz. Who did the--you mean the inspector 
general?
    Mr. Reynolds. The inspector general now is involved. We 
were going to be doing our own ----
    Chairman Chaffetz. Okay. Ms. Martin, can you shine some 
light on this ongoing problem?
    Ms. Martin. The expedited inquiry took place about the 
first part of August, so I can appreciate the fact that there--
the investigation is now turned over to the IG but with 
substantial credible evidence of a hostile work environment. 
There was a number of us that did fear that the superintendent 
did release or did have a list of names when the regional 
director came out with the expedited inquiry looking for 
individuals that would be willing to make statements either in 
person or written about their perception of a hostile work 
environment at Yosemite.
    So there was a number of us that feared that the 
superintendent probably got our names. We don't know how. Maybe 
it was through the regional office. We don't know, but I--there 
are people that felt that they were not going to come forward 
and provide a statement based upon this expedited inquiry 
because the superintendent had a list of names ahead of time.
    Chairman Chaffetz. Were there any repercussions for that? I 
mean, are you aware of anybody who had any sort of retaliation 
against them because they had stepped forward and made a 
statement about the reality of what was going on?
    Ms. Martin. Not at this point. There--because it still is 
under investigation, we don't have--we're not hearing about 
any--no names have been shared. We only have an informal 
network of individuals that have come forward, but we--this is 
the first time I'm actually hearing what some of the additional 
allegations are in this--in the statements that have been made.
    Chairman Chaffetz. Can you share with us any of your other 
personal experience? You mentioned that you had been the victim 
three times, and you were very candid in what happened in the 
1980s. But when you came back to the Park Service, what was 
your experience?
    Ms. Martin. I came back to the Park Service after working 
for the Forest Service for 16 years. When I came back in 2006, 
I was very excited that my career was coming back to the Park 
Service. I really enjoy working for the Park Service. But I 
am--experienced the culture that's very closed in terms of 
being able to talk about these difficult issues.
    And when I came back to the Park Service, my fear was is 
that the first individual that was the perpetrator for my first 
sexual harassment was still working for the Park Service, and 
indeed he was. And it was up until just recently that I--this 
is why I made the decision to come forward is that I really 
felt that it was important to shine light on the fact that this 
was the tipping point for me and for so many other women that 
needed to have this heard.
    Chairman Chaffetz. And this was a person who was arrested 
in the year 2000, a high-ranking national park official accused 
of peeping at naked women at a YMCA. Then, there is another 
incident report in 2001. They were having voyeurism issues. A 
police officer was sent; this person was found to be behind a 
home or a building in a highly suspicious behavior in that 
situation. And again, nothing happens. It seems to be a little 
bit of a pattern. These are just the one that they caught.
    So if you don't mind my asking--I hope you don't--what were 
the other two incidents that happened to you? And then also 
maybe if you can contrast the difference between Forest Service 
and Park Service.
    Ms. Martin. Thank you, Mr. Chairman. The other two 
incidents, one while I was still working at Grand Canyon, it 
was a--I don't remember the exact year--there was an individual 
that--between the Park Service and the Forest Service we work 
very closely together on wildland fire, you know, incidents, 
and so this particular gentlemen worked for the Forest Service, 
took pictures of me and put pictures--my pictures up above his 
visor in his government vehicle, was quite bold about it and 
showed other people that he had pictures of me in his 
government vehicle.
    One day, alone at my office, the south rim of Grand Canyon, 
he was bold enough to enter my office and tried to kiss me, and 
I pushed him away, very, very visibly shaken and upset, told a 
friend of mine about what had happened, went to his office, the 
Forest Service office, and proceeded to confront the 
individual. I never had any problems after that, but I did not 
feel safe at Grand Canyon.
    This particular gentleman had applied for the chief of fire 
and aviation job at Grand Canyon, and at that point I proceeded 
to notify the deputy superintendent at Grand Canyon at that 
time that this particular individual was sexually harassing me. 
I do believe that my conversation with the deputy 
superintendent most likely prevented that individual from 
getting a job at Grand Canyon.
    Chairman Chaffetz. And the other incident?
    Ms. Martin. The other incident was when, after I left the 
National Park Service, I was working for the U.S. Forest 
Service and there was a private--it was a work-sponsored 
meeting at a private house, and I was sitting next to a 
superior of mine in my fire chain of command, was sitting on a 
crowded couch, proceeded to run his fingers through my hair. I 
immediately got up from the couch to remove myself from the 
situation. I talked to my immediate supervisor about it the 
following day.
    Again, these are very embarrassing situations. It seems so 
ubiquitous in our culture, in the wildland fire culture that I 
just didn't feel that I could expose that as part of my--
preserving my career. But at one point I did mention it to 
upper management in the Forest Service, and the appalling reply 
when I told him about it, well, it's his word against yours.
    So I think at that point I really began to really believe 
that there is a culture of tolerance and acceptance of this 
kind of behavior in our workforce. And I have been powerless, 
although maybe I could have come forward with more formal 
complaints. I did not. I honestly felt that the preservation of 
my career and my career status with my peers was more important 
than filing a complaint.
    Chairman Chaffetz. With some indulgence here, just one more 
question. Mr. Reynolds, during your time heading the workforce, 
how many people were fired for sexual harassment, sexual 
misconduct, or anything in that genre? How many?
    Mr. Reynolds. I'd have to look up a number and get it to 
you today, but I am not aware that there were that many fired 
to be honest with you for those actions that you state.
    Chairman Chaffetz. Were there any?
    Mr. Reynolds. I'll confirm with you. I don't have any 
recollection of any at this point.
    Chairman Chaffetz. I guess I would like to know how many 
complaints were filed during that time.
    Mr. Reynolds. Yes.
    Chairman Chaffetz. Let's take the end of 2013 ----
    Mr. Reynolds. Okay.
    Chairman Chaffetz.--to present day ----
    Mr. Reynolds. Got it.
    Chairman Chaffetz.--how many complaints happened at any 
level, and how many people were fired?
    Chairman Chaffetz. Thank you.
    Mr. Reynolds. Thank you.
    Chairman Chaffetz. I now recognize the gentleman from 
Virginia, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
having this hearing.
    Mr. Reynolds, you are the deputy director of operations?
    Mr. Reynolds. Yes, sir.
    Mr. Connolly. So you, in that responsibility, oversee all 
of the national parks in some fashion?
    Mr. Reynolds. Through their regional directors, yes.
    Mr. Connolly. Yes. How long have you been on the job?
    Mr. Reynolds. Since August 1.
    Mr. Connolly. And why did you get placed in that job on 
August 1?
    Mr. Reynolds. We had a retirement of my previous boss, 
Peggy O'Dell, and the director asked if I would be willing to 
be reassigned into that job.
    Mr. Connolly. So it wasn't because of some policy shift or 
shoring up enforcement or making a statement that now we are 
taking it seriously?
    Mr. Reynolds. In this case my understanding is they needed 
a replacement for ----
    Mr. Connolly. Right. Okay.
    Mr. Reynolds.--a retirement.
    Mr. Connolly. So you were filling in?
    Mr. Reynolds. Yes.
    Mr. Connolly. Nothing wrong with that, but I mean ----
    Mr. Reynolds. Yes.
    Mr. Connolly.--I just wanted to make sure. We weren't 
making a statement trying to deal with what is front of us 
here?
    Mr. Reynolds. No.
    Mr. Connolly. So how long have you been with the Park 
Service?
    Mr. Reynolds. Thirty years.
    Mr. Connolly. Okay. So it is fair to ask you this question, 
I think. I mean, I am looking at the fact that we have got 
problems, you know, in the last few years at the Grand Canyon, 
Cape Canaveral, Yosemite, Yellowstone. I mean, you know, why 
shouldn't the public be led to believe that--now, behind the 
redwoods, you know, shenanigans are going on? People are being 
harassed or worse and nothing is being done about it because 
the culture is a so-what kind of culture frankly. It doesn't 
take this seriously, which has lots of ramifications for would-
be employees in terms of the desirability of service, in terms 
of the integrity of the National Park Service itself. The 
public wouldn't think this is a good idea or tolerate it and it 
would be very distressed and is distressed to hear the stories 
repeatedly.
    So help me understand. Is this a systemic culture that has 
to be weeded out in the National Park Service? And secondly, 
would you, by way of self-criticism, agree with Ms. Martin that 
up until now it has frankly not gotten the serious attention it 
deserved?
    Mr. Reynolds. I would first like to say that I think the 
majority of our employees are some of the best-serving 
employees I have ever seen in the Federal workplace, including 
folks like these, and they deserve a much, much better culture 
that we have. I hope it's not as systemic ----
    Mr. Connolly. Wait, wait ----
    Mr. Reynolds.--as it appears to be ----
    Mr. Connolly. Wait, wait, wait. They deserve a better 
culture than they have? That seems to be saying there is 
something ----
    Mr. Reynolds. We have a problem.
    Mr. Connolly.--systemically wrong with our culture.
    Mr. Reynolds. I believe we have a problem ----
    Mr. Connolly. Okay.
    Mr. Reynolds.--and I believe we should be making very 
urgent change to that culture.
    Mr. Connolly. Is there training or orientation before I put 
on that uniform as an employee of the National Park Service?
    Mr. Reynolds. There is. There ----
    Mr. Connolly. On this subject?
    Mr. Reynolds. There is a little on the subject. It needs to 
be more.
    Mr. Connolly. All right. Tell us the--what is the SOP, 
standard operating procedure, when you get a report, whether it 
is anonymous--I assume you have a hotline so if I want to 
protect my identity--I am Ms. Martin but I don't want to be 
fingered because I am on the job surrounded by the people ----
    Mr. Reynolds. Right.
    Mr. Connolly.--perpetrating ----
    Mr. Reynolds. Confidentiality.
    Mr. Connolly.--the harassment. So do I have an anonymous 
hotline I can call and have it followed up on?
    Mr. Reynolds. Yes. To clarify, there is a hotline if you 
will, a reporting mechanism, in each region for the EEO 
operation. We are establishing a new hotline as well, a third-
party ----
    Mr. Connolly. Does that mean that each region has its own 
SOP?
    Mr. Reynolds. In general, each region has its own offices. 
They should be operating from one Park Service-wide SOP, and 
that's something we're shoring up as we speak.
    Mr. Connolly. So there is a manual that--if I am a regional 
director ----
    Mr. Reynolds. Yes.
    Mr. Connolly.--and I am new on the job, where do I go to 
get guidance on how we handle these things?
    Mr. Reynolds. You go right to your EEO officer in the 
region. And some parts have EEO collateral duty, which is a 
fancy way of saying other duties as assigned, and they often 
are in H.R., they might be in some other--depending on the size 
of the park ----
    Mr. Connolly. Okay.
    Mr. Reynolds.--they might actually have a ----
    Mr. Connolly. All right. Sticking with SOP for a minute 
because I am trying to understand ----
    Mr. Reynolds. Yes.
    Mr. Connolly.--what is going on at the National Park 
Service. So I am so-and-so and I have been harassed and I go to 
my supervisor, I don't do it anonymously, and I report that, 
you know, Fire Ranger X has put the hit on me and I am very 
comfortable, I shouldn't have to put up with that, it is 
degrading, humiliating, I didn't sign up for this and I want 
some action, what happens?
    Mr. Reynolds. They are referred immediately--if the 
supervisor does their job right--to an EEO specialist or to 
somebody at the hotline at the place that we were referring to.
    Mr. Connolly. But you heard Ms. Martin's testimony. Her 
testimony is that when that happened I think to her the answer 
was it is your word against his, right? Is that right, Ms. 
Martin?
    Ms. Martin. That's correct.
    Mr. Connolly. So, Mr. Reynolds, going to the EEO person 
didn't work.
    Mr. Reynolds. Yes. We've got problems that I have to fix 
urgently.
    Mr. Connolly. Mr. Healy, a lot of the complaints focused on 
the Grand Canyon, which shocked me. I mean, the Grand Canyon is 
so spectacularly beautiful. I can't believe that you are 
focused on anything other than beauty, but apparently our Park 
Service rangers are. What is going on in the Grand Canyon by 
way of trying to address this issue so that it does not recur 
and that we have actually shifted the culture at one of the 
great icons of the world, the Grand Canyon?
    Mr. Healy. We do have the Park Service response to the OIG. 
There's 18 action items. But I think a very positive step was 
the assignment of our new superintendent Chris Lehnertz. I 
think people at the park feel comfortable with her, and she's--
she called me on her second day on the job. She's definitely 
someone that will listen to us and I think has been approaching 
our issues directly instead of pretending they aren't there, 
you know. She's there to make change, and I think that's a big 
positive step for us.
    Mr. Connolly. Just a final question because I know my time 
is up and I thank my classmate and friend from Wyoming in 
indulging me. But, Mr. Healy, would you agree with Mr. Reynolds 
that we have got a lot of reform that has to happen in the 
culture?
    Mr. Healy. Absolutely.
    Mr. Connolly. Thank you.
    Thank you, Madam Chairman.
    Mrs. Lummis. [Presiding.] The gentleman yields back.
    Mr. Grothman, is recognized.
    Mr. Grothman. Thank you.
    First of all, there was an incident referred to by Chairman 
Chaffetz before, and I am going to ask Mr. Reynolds about it, a 
situation where at first blush the wife was kind of over the 
husband. Is that true?
    Mr. Reynolds. In that situation she does not directly 
supervise her husband. She's in the regional office, which is 
the next level up, sir.
    Mr. Grothman. How long did that situation exist?
    Mr. Reynolds. I would have to confirm it, but I think it's 
been many, many years that they've been in service.
    Mr. Grothman. I mean, where she's--okay.
    Mr. Reynolds. Long-serving deputy ----
    Mr. Grothman. Office ----
    Mr. Reynolds.--maybe more than 10 years at least.
    Mr. Grothman. Okay. I will give you another general 
question, and this to me is just, you know, more evidence why, 
no matter how tempting it may seem to my colleagues, you never, 
ever, ever want the government to do anything more than they 
have to.
    Mr. Healy--oh, one more question for Mr. Reynolds. You said 
that you never knew since you were they head of H.R. anybody 
being fired for sexual harassment, right, you couldn't remember 
that ----
    Mr. Reynolds. Yes. I am going to follow up for the chairman 
on ----
    Mr. Grothman. Yes.
    Mr. Reynolds.--the data, but it didn't--I was managing 
systems and processes.
    Mr. Grothman. How long were you head of H.R. in this 
region?
    Mr. Reynolds. Two years.
    Mr. Grothman. Two years? How many people did you have under 
you?
    Mr. Reynolds. There's about 18,000 permanents, upwards of 
20,000 by the time the seasons come in.
    Mr. Grothman. So you were the H.R. head of over 18,000 
people, right?
    Mr. Reynolds. In general. The way our system works is our 
regions actually run their own H.R. programs. We have the sort 
of the overarching system and process oversight.
    Mr. Grothman. Do you know in those two years how many 
people were let go, period, for anything?
    Mr. Reynolds. We fire quite a few--upwards of at least 100 
people a year for various infractions.
    Mr. Grothman. Okay. What do they usually do?
    Mr. Reynolds. They are often conduct issues. They might be 
caught stealing or they might be the normal range of things you 
might have happen.
    Mr. Grothman. Okay. Mr. Healy, thanks for coming by. We 
have got to ask you some questions. How pervasive is 
retaliation at the Park Service?
    Mr. Healy. I'm sorry. Can you repeat that?
    Mr. Grothman. How pervasive do you think retaliation is at 
the Park Service?
    Mr. Healy. You know, I--my experience is limited to Grand 
Canyon, and it's--with a couple of the individuals that are 
still at the park I think there's a pretty extensive pattern of 
that. And that was all described in--by the OIG during their 
investigation.
    Mr. Grothman. Okay. Are you afraid of retaliation for 
showing up and talking to us today?
    Mr. Healy. Yes, I am somewhat. Yes. Yes.
    Mr. Grothman. Okay. I guess this question is kind of 
obvious but do you feel the Park Service has adequately held 
managers accountable for their part in allowing harassment to 
occur at Grand Canyon?
    Mr. Healy. I don't at this time. I'm optimistic for the 
future, but, you know, it's been quite a while since the OIG 
investigation came out, and the Park Service response to that, 
and, you know, we're in September and we still haven't seen 
some of the individuals that were implicated by the OIG leave.
    Mr. Grothman. Slow-moving. Maybe I will switch back to Mr. 
Reynolds. Are any of these managers under any jeopardy of 
losing their job for their slow-moving here?
    Mr. Reynolds. I--again, as I offered earlier, I'd be happy 
to talk to you in person or the chairman ----
    Mr. Grothman. Again, are they in jeopardy, I mean, just 
poking around here ----
    Mr. Reynolds. For many of these actions, as they are found 
true, yes, they are in jeopardy.
    Mr. Grothman. Okay. Mr. Healy, according to your testimony, 
a former supervisor at the Grand Canyon district breached 
confidentiality victims and was given a temporary promotion to 
chief ranger, is that true? What effect does that have on the 
morale of the employees when they see the sort of thing going 
on?
    Mr. Healy. I think it has a severe impact. I think it 
really does. I think that was probably a setback for employee 
morale in moving forward after this thing. You know, this is a 
really, really big deal for employees.
    Mr. Grothman. What was his position before and what was he 
promoted to?
    Mr. Healy. He was supervisory park ranger, I believe, and 
his temporary promotion was chief ranger at a park, so the 
highest ranger position at another park from what I understand.
    Mr. Grothman. Okay. Would you feel comfortable saying what 
park? I won't make you do that. You probably ----
    Mr. Healy. It's Curecanti ----
    Mr. Grothman. Curecanti ----
    Mr. Healy.--Black Canyon of the Gunnison area. It's in 
Colorado.
    Mr. Grothman. Okay. Okay. Okay. Interesting. I will go back 
to Ms. Martin. I will ask you the same question. How common do 
you think retaliation is at NPS?
    Ms. Martin. Thank you, Congressman, for that. I'm fearful 
more of the repercussions. The retaliation I have not been a 
victim of. And I think everybody knows that by coming forward, 
we are trying to very truly have a stronger conversation about 
what sexual harassment is and a hostile work environment is, so 
I actually feel somewhat confident that retaliation will not 
happen. But there are people that do fear that and will not 
come forward with honest statements.
    Mr. Grothman. Because retaliation, you mean they feel they 
are less likely to be promoted themselves in the future?
    Ms. Martin. Yes, I think, you know, people just don't want 
to really rock the boat. They don't really want to come forward 
for what they really see as going on. So there's a handful of 
us that believe that this is an extremely important topic to 
bring forward, and so I'm cautiously optimistic, I guess, that 
we will not be retaliated against.
    Mr. Grothman. Okay. Mr. Reynolds, in your past statements 
you said you were doing what you can to increase the number of 
women in management positions at the Park Service. Could you 
elaborate?
    Mr. Reynolds. We are beginning to venture into a much more 
aggressive recruitment. We've opened a recruitment office that 
will--we really have not had--recruitment has been done at the 
supervisory management level, so we're trying to begin to 
centralize that to focus on both--diversity in all of its 
forms.
    Mr. Grothman. Okay. I am well over my time so thanks for 
being patient with me.
    Mrs. Lummis. I thank the gentleman.
    Mr. Mica is recognized for five minutes.
    Mr. Mica. Well, thank you, Madam Chairman and ranking 
member. I haven't been able to participate; I got waylaid on a 
host of other things. But I did stay up last night and read 
some of the testimony and a staff report. It was absolutely 
appalling to see what took place in some of these instances, 
and it also to me is disgraceful that the Federal Government 
could be a partner into the abuse of women and employees and 
others and let them be subject to this type of activity. I just 
was stunned at what is going on.
    When we came into the majority in 1995, I was the first 
Republican chairman of civil service in 40 years, and I got to 
look at the civil service system. And you want a civil service 
system--and it was created to protect employees from political 
interference, but it wasn't created to protect them when they 
abuse their fellow employees, violate laws, protocols, rules, 
and that is what I read page after page. It is just stunning.
    And then I saw the movement of people within the agency 
from department to department. One case, and I am sure it has 
been relayed here, where you get promoted after you commit 
sexual acts that no one would tolerate in any other form of 
employment.
    Okay. I have sat here, I have sat through IRS, I have sat 
through--I never forget the head of Secret Service. She came to 
me after she was brought in, Julia--she went to the University 
of Central Florida, was a police officer, eminently qualified, 
first female Secret Service director. And after she was there 
for a while, she came in and she says this is almost impossible 
to control. I need assistance to determine--well, to be able to 
hire and fire, hire and fire poor performers, and that is--
whether it is Secret Service, whether it is IRS, whether it is 
GSA, FBI, other agencies, we have to--actually some of them are 
exempt. There is exempt and un-exempt.
    Mr. Reynolds, are your hands tied?
    Mr. Reynolds. Congressman, thank you for bringing this up. 
It is a complex system that you know better than anybody.
    Mr. Mica. It is very complex, and it is very difficult for 
you to navigate ----
    Mr. Reynolds. Yes.
    Mr. Mica.--and it can take a long time to get rid of these 
people.
    Mr. Reynolds. I don't want to cop out by saying it's the 
process, right ----
    Mr. Mica. I would ----
    Mr. Reynolds.--we have to be accountable ----
    Mr. Mica. I am not copping out either, but I am telling 
you, it is the process. We have set up a system where nobody 
gets fired. When you do egregious things, you don't get fired. 
It is easier to transfer them around. And we have seen 
examples. An example, I read it last night, and it didn't let 
me sleep well last night.
    Mr. Reynolds. There is a GAO report that says it takes us 
six months to a year to terminate people at times.
    Mr. Mica. And that would be a speedy termination, and the 
alternative is actually that they are moving people into other 
positions. And then what kind of message does it send when they 
actually get elevated? One of the most troublesome cases was 
getting elevated to one of the highest positions, and everybody 
knew what was going on. It is disgraceful.
    Well, I think that the way to cure this is, again, you want 
to protect--we want to protect people--we have thousands and 
thousands of wonderful employees of the Federal Government. You 
have got them in the Park Service ----
    Mr. Reynolds. Yes.
    Mr. Mica.--and I have seen them. They stay there late, they 
work extra time, they neglect sometimes their family, but they 
serve the public. They are public servants. We have got a few 
rotten apples in the barrel, and they are still in the barrel, 
and to me it is disgraceful that we haven't fixed the system 
that allows you to do your duty to clear the deck of people who 
need to be fired, removed, and held accountable. Would you 
agree with that?
    Mr. Reynolds. I agree.
    Mr. Mica. Okay.
    Mr. Reynolds. We need to move as fast as we can ----
    Mr. Mica. Well, again, Madam Chairman, thank you for 
holding this hearing. This is an important hearing. This is to 
the core of the problem we have across the spectrum of the 
Federal Government.
    And I thank you and yield back the balance of my time.
    Mrs. Lummis. I thank the gentleman from Florida.
    I have seven statements that I would like to include in the 
record. Without objection, so ordered.
    Mrs. Lummis. Mr. Healy, have you ever seen someone, let's 
say a problem person, a sexual predator within the National 
Park Service, either transferred laterally or promoted?
    Mr. Healy. I don't believe so.
    Mrs. Lummis. Ms. Martin, have you ever seen someone who was 
known to be a problem employee for the reasons we are meeting 
today either transferred laterally to a different NPS property 
or promoted?
    Ms. Martin. If you refer to my testimony regarding my first 
sexual harassment incident at Grand Canyon, that is an example 
of how an individual was laterally moved and promoted.
    Mrs. Lummis. Well, what we have heard today are terms like 
toxic work culture, a closed culture. We have heard ``go along 
to get along'' culture, and we know that within the National 
Park Service there are plum assignments. People will stay 
regardless of how long it takes or what they have to put up 
with to get to some of those crown jewel properties because 
they love their jobs so much.
    In some respects that is rewarding loyalty. In other 
respects, it can create a toxic work culture. And it appears 
that the National Park Service, especially since we have had 
reports of this for 16 years and that these matters are not 
being adequately addressed, that perhaps promotion from within 
has actually hurt the National Park Service from addressing 
cultural systemic problems in this area.
    So I will be asking the chairman and ranking member of this 
committee to prepare memos to the transition teams for both the 
Democratic and Republican Presidential candidates to inform 
them of what is in the record here about what is going on at 
the National Park Service in terms of a toxic work culture and 
how maybe it is time to get, as Mr. Mica said, some of the 
rotten apples that are still in the barrel out of the barrel.
    And maybe that is going to require people who have made 
this their career and have been looking forward to being 
considered for some of the very highest positions within the 
National Park Service to not attain those goals because this 
has been tolerated. It has not been swept under the rug and now 
some of the people in leadership positions are just finding out 
about it. It has been tolerated. And it appears that people 
have tolerated this in order to advance their careers into the 
highest positions in the National Park Service. It is time to 
ferret out that kind of toxic culture. And either new President 
is going to be in a position to do that.
    So I will ask the chairman of this committee and the 
ranking member to prepare memos to the transition teams of the 
Democratic and Republican nominees for President and present 
them to them so when they are going through transition and 
preparing people to go before Senate committees for 
confirmation that they know exactly what is going on in the 
National Park Service and they are prepared to address these 
problems.
    I thank you for your testimony today. It builds on 
testimony that we have in writing. It builds on reports that we 
have had for 16 years that have gone inadequately addressed. It 
informs the next President that they better start lawyering up 
these agencies with people who are experts in personnel rules 
and disciplinary rules because they are going to take a whole 
bunch of people through processes that have not been used 
enough within the National Park Service.
    I now recognize the ranking member, Mr. Cummings.
    Mr. Cummings. I want to thank the chairlady for your words, 
and I agree that it would be a good idea to get those letters 
out to the two transition teams. And I think hopefully it will 
have some impact.
    To you, Ms. Martin, to you, Mr. Healy, I thank you for 
coming forward. This is not easy. It can't be. When I think 
about you, Ms. Martin, having left and then come back, and I 
was just reading the file of the person who was the peeping 
tom, you should not have had to go through that.
    You know, I often think about how people come to work every 
day. Sometimes they have things that they have to struggle with 
at home. All of us do. But no matter what, they get up, they 
come to work, and when you have got a job like the ones you all 
have, dealing with the public, you have got to put on a good 
face and you have got to be the best that you can be.
    But the idea that you come to work and you have got people 
who place you in a position of discomfort, knowing that they 
could have not only an impact on your career but on your way of 
life and then to be able to function at your maximum with all 
of that over your head, that is quite a bit. And then to 
seemingly have an administration at the Park Service that 
through neglect or just a sheer sense of lack of urgency, does 
not back you up, that is a problem.
    The other thing that I guess that goes through my head is 
what I said a little bit earlier. You have been bold enough to 
come here to give your testimony and the idea that you might 
not have the impact that you wanted to have and to go back and 
get hurt because you have stepped forward is the worst thing 
that could happen.
    So I want to vow to you and I am sure everybody on this 
committee feels the same way--and let me send the message to 
all of those who are thinking about, thinking about, thinking 
about retaliating or bringing harm that we will come after you 
with everything we have got. There is no way that we will 
correct this culture if you have to be in fear and if they have 
the position that they can do whatever they want and get away 
with it.
    And to those who feel that way, that feel that they want to 
retaliate, I would invite them to leave the Park Service. Go do 
something else because we want our employees to be able to be 
content. We want them to have a normal employee/employer 
existence, normal. This is not normal. It is not. It has got to 
be stressful every day watching your back. Who is going to hurt 
you? Who is going to block your path? What is going to happen 
when you come up for promotion? Who is going to be whispering 
things, oh, she is not this or he is not that? And when you 
don't even know who did it. So all of that, that has got to be 
stressful.
    And then I go back to what you said, Ms. Martin, with 
regard to doing the whole balancing thing. Do I tell or do I be 
quiet? Do I say something? Because if I say something, my 
career may be ruined. And then what am I going to do? How am I 
going to feed my family? Those are real, real decisions.
    And so, you know, I know there is a survey coming out, Mr. 
Reynolds, but the thing that struck me is that 16 years ago a 
similar survey came out, is that right? And when folks were 
asked about sexual harassment, they were asked this question, 
``have you personally experienced sexual harassment'' 52 
percent, hello, 52 percent of the respondent females in law 
enforcement positions in the Park Service said yes, and an 
astounding 76 percent of the respondent females in the United 
States Park Service answered yes.
    What is that about? And did you see that? Did you see those 
things when you were there? You know, we talked about these 
incidents. When you held the position that you held, head of 
H.R., whatever you called it, did you see some of this?
    Mr. Reynolds. I did see instances come through in terms of 
cases, not--we haven't had the data to understand that the way 
that survey describes, which is why we want to do a second--you 
know, this new survey and to do it right this time.
    Mr. Cummings. But this was 16 years ago?
    Mr. Reynolds. Yes.
    Mr. Cummings. All right. We have got problems ----
    Mr. Reynolds. Yes, sir.
    Mr. Cummings.--and we have got to correct them.
    Mr. Reynolds. And I would like to say that I will 
personally ensure--and you may hold me absolutely accountable--
that these people will be protected with their careers and 
their lives.
    Mr. Cummings. And see, they know the names. They know the 
names. They know the names. But you know what? You can know the 
information and know the names, but when you have got this 
culture, even giving up--just the mere giving up the names 
would cause them stress, am I right, Ms. Martin?
    Ms. Martin. Without a doubt. I know that I have--I'll be 
probably more--I'll be facing serious repercussions, but I just 
have to go on record to tell you that I have a tremendous 
amount of support of women behind me that could not do this, 
but the other important thing is that there's men that want to 
see our culture change, too.
    Mr. Cummings. That leads me to my last statement, and I am 
so glad you said that. I am so glad you said that. And I want 
to say this to all the people that you just talked about, the 
ones that back you up, the ones that care, the ones that 
support you ----
    Ms. Martin. Absolutely.
    Mr. Cummings.--they have got to understand that they are 
the solution. They really are. They have to be that critical 
mass. They have got to stand up, they have got to back you up, 
and then hopefully more and more will come forward. And if 
changes need to be made at the top, they need to be made, but 
they have to help us change it because they are there. You are 
on the ground. They are the witnesses, okay?
    I have often said through our pain must come our passion to 
do our purpose. Your pain has allowed you to come here with a 
passion, and that passion has allowed you to do your purpose. 
And hopefully, we will be able--that purpose will be about 
bringing a new day to the Park Service by shining a bright 
light on its problems.
    With that, Madam Chair, I yield back.
    Mrs. Lummis. I thank the ranking member.
    The tone is set at the top, so the tone has to change going 
forward.
    I want to thank our witnesses. Mr. Healy, thank you for 
coming here and for your bold statements. Ms. Martin, thank you 
for your testimony today and for representing other people 
within the National Park Service who are similarly situated, 
but your ability to speak on their behalf is deeply appreciated 
by this committee. Mr. Reynolds, thank you for your testimony 
today. You have got your hands full. I hope you are up to the 
task.
    Mr. Reynolds. Yes.
    Mrs. Lummis. You know, God bless you in your work there.
    With that, the Committee on Oversight and Government Reform 
is adjourned.
    [Whereupon, at 3:18 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               
                               [all]
</pre></body></html>
